Audit Report




OIG-13-027

Audit of the Office of the Comptroller of the Currency’s
Fiscal Years 2012 and 2011 Financial Statements

December 19, 2012




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             December 19, 2012


            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Office of the Comptroller of the Currency’s
                                    Fiscal Years 2012 and 2011 Financial Statements


            I am pleased to transmit the attached audited Office of the Comptroller of the
            Currency (OCC) financial statements for fiscal years 2012 and 2011. Under a
            contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of OCC as of September 30, 2012 and 2011 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations

            In its audit, GKA found that the financial statements were fairly presented, in all
            material respects, in conformity with accounting principles generally accepted in
            the United States of America. However, GKA identified a significant deficiency
            related to information technology general controls over OCC’s financial systems.
            Further, GKA found no instances of reportable noncompliance with laws and
            regulations tested.
In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated October 31, 2012 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789 or a member
of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
                                                                            OCC Locations
                                                                     OCC Locations
            Seattle



                                                                                                       Duluth
                                                                                Fargo                                    Iron Mountain
                                                                                              Alexandria
                                             Billings

                                                                                                                                                                                                       Boston
                                                                                                            Minneapolis
                                                                                                                                                                                  Syracuse

                                                                            Sioux Falls                              Milwaukee
                                                                                                                                              Detroit                   Wilkes-Barre               New York
                                                                                                  Sioux City                                                                Philadelphia       Edison
                                                                                                                         Chicago
                                                                                                                                                     Cleveland          Pittsburgh
                                                                                  Omaha              Des Moines                 Peoria                 Columbus
                                Salt Lake                                                                                             Indianapolis
                                City                                                                                   Champaign                     Cincinnati                                 Washington, DC
San                                                     Denver
                                                                                                                                                                  Charleston
Francisco                                                                                  Kansas
                                                                              Salina                                                  Evansville
                                                                                              City                           St. Louis           Louisville                    Roanoke
                                                                                Wichita
                                                                                                         Joplin
                                                                                                                                               Nashville
       Los Angeles                                                                                                                                                             Charlotte
          Santa Ana                                                                       Tulsa
                                                                                                                                  Memphis
                                                                                                               Little Rock
            San Diego                                            Amarillo                 Oklahoma
                                            Albuquerque                                   City
                            Phoenix                                                                                                                           Atlanta
                                                                 Lubbock
                                                                                            Dallas                                        Birmingham
                                                                                                                              Jackson
                                                                            Fort Worth

                                                                                              Longview
                                                                                                                                                                                Jacksonville

                                                                                                  Houston                              New Orleans
                                                                                San Antonio                                                                              Tampa



                                                                                                                                                                                Miami              Great
                                                                                                                                                                                                     Britain



                                                                                                                                                                                                  London




                  Western District                       Central District                                        Southern District                                      Northeastern District
About the OCC

The Office of the Comptroller of the Currency’s
(OCC) mission is to charter, regulate, and supervise
national banks and federal savings associations1 and
to supervise the federal branches and agencies of
foreign banks. The OCC’s goal is to ensure that these
institutions operate in a safe and sound manner and
in compliance with laws requiring fair treatment of
their customers and fair access to credit and financial
products. The OCC is an independent bureau of the
U.S. Department of the Treasury.

The President nominates the Comptroller of the
Currency subject to confirmation by the U.S. Senate.
The Comptroller also serves as a director of the                      •	   take supervisory and enforcement actions
Federal Deposit Insurance Corporation (FDIC) and                           against banks that do not comply with laws and
NeighborWorks America.                                                     regulations or that otherwise engage in unsound
Headquartered in Washington, D.C., the OCC has                             practices.
four district offices plus an office in London, which                 •	   remove and prohibit officers and directors,
supervises the international activities of national                        negotiate agreements to change banking practices,
banks. The OCC’s nationwide staff of bank examiners                        and issue cease-and-desist orders as well as civil
conducts on-site reviews of banks and provides                             money penalties (CMP).
sustained supervision of these institutions’ operations.              •	   issue rules and regulations, legal interpretations,
Examiners analyze loan and investment portfolios,                          and corporate decisions governing investments,
funds management, capital, earnings, liquidity,                            lending, and other practices.
sensitivity to market risk for all banks, and compliance              The OCC and the federal banking system were
with consumer banking laws governing banks with                       created by the National Currency Act, which President
$10 billion or less in assets. They also evaluate                     Abraham Lincoln signed into law on February 25,
management’s ability to identify and control risk.                    1863. In June 1864, the law was substantially revised
In supervising banks, the OCC has the power to                        and expanded and given a new name: the National
                                                                      Bank Act. It remains the basic statute under which the
•	   examine the banks.                                               OCC and the federal banking system operate today.
•	   approve or deny applications for new charters,
     branches, capital, or other changes in corporate or              The first Comptroller of the Currency was Hugh
     banking structure.                                               McCulloch, formerly the president of the state-
                                                                      chartered Bank of Indiana. McCulloch went to
1
 OCC-supervised national banks and federal savings associations are
                                                                      Washington to argue against passage of the National
collectively referred to as banks in this report.

	                                                                                                     About the OCC	         1
                                                                      Currency Act but soon came to appreciate its merits.
                                                                      Salmon P. Chase, Lincoln’s Secretary of the Treasury,
                                                                      asked him to lead the new system, and McCulloch
                                                                      agreed.

                                                                      Under McCulloch, his successors, and a professional
    About This Annual Report
                                                                      staff of national bank examiners, the new system made
    Section 61 of the National Currency Act of February               an important contribution to the robust growth of the
    25, 1863, directed the Comptroller of the Currency                U.S. economy. National banks under OCC supervision
    to “report annually to Congress … a summary of the
    state and condition” of the national banking sys-                 issued a uniform national currency, which replaced
    tem, along with suggestions for “any amendment to                 the previous varied and unreliable money supply, and
    the laws relative to banking” or “other information               provided financial services across the country.
    in relation to [banking] associations as, in his judg-
    ment, may prove useful.” Over the past century and                The National Bank Act endows the OCC with
    a half, some of the most significant changes to the
    U.S. financial system—including the amendments                    considerable operational independence. The OCC does
    to the National Currency Act enacted by Con-                      not receive appropriations from Congress. Instead,
    gress at the urging of Comptroller Hugh McCull-                   the OCC’s operations are funded primarily through
    och as the National Bank Act of 1864—began with
                                                                      assessments on the financial institutions it supervises.
    recommendations contained within the pages of
    this report. Since that time, the OCC Annual Report
    has chronicled and advanced the long evolution of the             On July 21, 2011, under provisions of the Dodd–Frank
    nation’s financial and regulatory structure, providing            Wall Street Reform and Consumer Protection Act of
    the American people and their representatives with                2010,2 the Office of Thrift Supervision (OTS) became
    information vital to the country’s economic security
                                                                      part of the OCC. As a result, the OCC is responsible
    and well being.
                                                                      for the supervision of federal savings associations,
                                                                      under the Home Owners’ Loan Act.




                                                                      2
                                                                          Hereafter referred to as Dodd–Frank in this report.


2       Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2012
Contents

About the OCC 	                                                 1	


Comptroller’s Viewpoint 	                                       4	


Section One: Year in Review 	                                   7	


Section Two: Condition of the Federal Banking System 	         25	


Section Three: OCC Organization 	                              27	


Section Four: Licensing and Enforcement Measures 	             31	


Section Five: Financial Management Discussion and Analysis 	   35	


Abbreviations 	                                                75	


Index 	                                                        77	




         3
	Contents	
Comptroller’s Viewpoint

As I write this introduction to the OCC’s fiscal year                 those standards. It means making sure that banks have
(FY) 2012 Annual Report, it is a little more than six                 appropriate processes, procedures, and contingency
months since the Senate confirmed my nomination                       plans to address the full spectrum of risk applicable
as the 30th Comptroller of the Currency. For a career                 to those institutions. It also demands that the OCC
bank supervisor like myself, there is no higher honor                 establish clear and reasonable rules and that our
than to assume a place among the distinguished                        procedures enforce those rules consistently and fairly.
Americans who have built and burnished the OCC’s
reputation for excellence.                                            As someone who has been involved in bank
                                                                      supervision for more than 25 years, I have learned
Since I arrived at the OCC in April 2012, three key                   how important it is that supervision be fair and
anniversaries have come and gone. It has been five                    reasonable. The institutions we oversee play a vital
years since the start of the worst financial crisis since             role in supporting strong communities and economic
the Great Depression, two years since the Dodd–                       growth by serving the financial needs of individuals,
Frank Wall Street Reform and Consumer Protection                      communities, and businesses, and we don’t want
Act altered the financial regulatory landscape, and                   to hamstring those efforts with supervision that is
one year since the integration of the Office of Thrift                overly burdensome, arbitrary, or unpredictable. At
Supervision into the OCC. And next year will bring a                  the same time, it is important that the industry and
fourth milestone that is very important to those of us                the public recognize that supervisors take strong
at the OCC: the 150th anniversary of the passage of                   action—including public enforcement actions
the National Currency Act of 1863, which created the                  requiring payment of CMPs and restitution—
federal banking system and the OCC as its supervisor.                 to correct problems.
In its own way, each of these events influences my
agenda as Comptroller.                                                Several initiatives to enhance OCC supervision were
                                                                      under way when I became Comptroller, and those
The financial crisis was a powerful reminder that a                   initiatives continue. U.S. bank supervisors are working
safe and sound banking system is indispensable to our                 together to raise capital standards because the financial
nation’s economic health. That’s why, at my Senate                    crisis demonstrated yet again that a safe and sound
confirmation hearings, I publicly committed myself to                 banking system requires capital of sufficient quantity
the cause of robust supervision. I further promised that              and quality to meet all reasonable contingencies. It
we would continually reexamine our own supervisory                    is a measure of the industry’s growing health that
policies and procedures and take all necessary steps to               capital, both in absolute terms and in relation to the
enhance them.                                                         risks embedded in bank loan portfolios, is stronger
                                                                      today than it has been in many years. Progress has
Specifically, strong supervision means setting high                   also been made in bolstering liquidity, addressing
standards and holding the national banks and federal                  a weakness that was exposed during the period of
savings associations we supervise (and ourselves) to                  low market confidence in 2008–2009. We’ve raised




4       Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2012
supervisory standards for risk management, including      of our resources to community bank supervision. We
the management of operational risk, which has been a      work closely with the banks we supervise to help them
matter of particular concern of late.                     identify their strengths, correct their weaknesses, and
                                                          build their businesses in a safe and sound manner.
We set heightened expectations for corporate oversight    Our community bank supervision is carried out by
and governance at our largest banks. For example,         examiners who are knowledgeable, experienced,
while supervisors long operated on the premise that       and sensitive to the circumstances under which
oversight functions rated as “satisfactory” were          their institutions operate. Our supervision program
sufficient, we now require large banks to achieve a       combines the perspective of local examiners with the
rating of “strong” in their audit and risk management     perspective of a national organization.
functions. We expect members of each bank’s board
and its executive management team to ensure that          Regulatory burden seems always to fall most heavily
audit and risk management receive visible and             on those institutions that are least equipped to handle
substantive support. Our examiners evaluate the           it—namely, banks that don’t have a deep bench of
transition from “satisfactory” to “strong” in these       consultants and lawyers to help steer them through the
two key oversight functions as part of their ongoing      thickets. Thus, one of the most important contributions
supervision. When we find weaknesses, we require          we can make—especially at a time of regulatory
corrective action.                                        change—is to help minimize that burden. We are doing
                                                          this by making sure we apply the rules with a view to
We see considerable evidence that our heightened          the unique challenges facing community banks. As
expectations for corporate oversight and governance       discussed in this Annual Report, we have done just that
are taking hold—that the people and systems behind        in a number of the Dodd–Frank rulemakings relating
our largest banks are better prepared to meet the         to stress testing and credit ratings, for example.
challenge of running these complex and powerful
financial institutions.                                   To address that challenge as effectively as possible,
                                                          it is important for us to listen to the men and women
But we cannot afford to be complacent—certainly           who lead community banks. We have an ambitious
not at a time when the banking system and the             outreach program that takes me and other OCC senior
U.S. economy are facing strong headwinds at home          managers around the country to speak with—and listen
and abroad.                                               to—community bankers. I look forward to continuing
                                                          this dialogue in the coming months and years.
Community banks face special challenges. Some of
the communities they serve have yet to participate        Last year’s Annual Report observed that Dodd–
in the economic recovery. Community banks tend to         Frank implementation and international efforts to
hold concentrations of residential and commercial real    strengthen capital standards were the OCC’s major
estate loans—two products that performed especially       preoccupations in FY 2011. That was still true in
poorly during the recession. Not only have these banks    FY 2012. Though many key rulemakings were
had to write off disproportionate numbers of bad loans,   finalized in 2012, as detailed in this Annual Report,
but they also have had trouble finding creditworthy       others are still developing. Proposed revisions to the
borrowers in this difficult economic environment. This    risk-based capital rules, the risk retention rule for asset
situation has pressured bank profitability. Community     securitizations, and the Volcker rule on proprietary
banks also face new regulatory requirements. These        trading generated enormous interest from the financial
circumstances explain why some question the future        industry and other concerned parties. While the OCC
of the community bank franchise and why some              intends to move forward with these rulemakings in an
veteran community bankers have decided to leave the       expeditious manner, it is also important to consider all
business.                                                 the ramifications of these proposed rules.
The OCC is committed to ensuring that community
banking remains safe and sound. We devote the bulk



	                                                                                   Comptroller’s Viewpoint	        5
The integration of the bulk of the people and                           and loan and bank crises of the late 1980s and early
supervisory functions of the OTS into the OCC, as                       1990s, as well as the more recent financial crisis that
mandated by Dodd–Frank, is continuing on schedule.                      shook the U.S. and global economies. We have learned
The success of this massive undertaking is a matter of                  that risks to the banking system can come from many
particular pride to me and should be to everyone who                    directions, and it is our job to be alert to them all. This
had a hand in making it happen.                                         is a challenge the OCC has met throughout its 150-
                                                                        year history and one I am confident we will continue to
The OCC’s 150th anniversary in February 2013 will be                    meet in the years to come. I welcome the opportunity
more than a celebration of the vision of our founders,                  to lead this vital organization into the future.
especially President Abraham Lincoln, Secretary of the
Treasury Salmon P. Chase, and the first Comptroller,
Hugh McCulloch. We will also celebrate the values
that have distinguished the OCC since its creation:
professionalism, independence, and a commitment to
                                                                                                              Thomas J. Curry
a strong, integrated national economy. In my career
                                                                                                    Comptroller of the Currency
as a bank supervisor, I have experienced the savings




6       Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Section One
Year in Review

Introduction
On April 9, 2012, Thomas J. Curry became the 30th
Comptroller of the Currency, assuming the leadership
of an agency dedicated to the oversight of federally
chartered financial institutions. Today, the OCC
is an organization of bank examiners, attorneys,
economists, and other professionals working together
to accomplish its vital mission in the best interests of
citizens, banks, and the nation’s economy.

Testifying before the U.S. Senate Committee on
Banking, Housing, and Urban Affairs for the first time
after his confirmation, Comptroller Curry reaffirmed
the OCC’s commitment to “strong, effective
supervision.”3 To that end, the OCC in FY 20124
focused its efforts on assessing and enhancing the                            Comptroller Thomas J. Curry testifies on OCC supervision before
ability of the banks it supervises to identify, measure,                      a congressional committee. Paul Nash, Senior Deputy Comptroller
                                                                              and Chief of Staff, is at right.
monitor, and control risk.

During the year, the agency supplemented and updated
                                                                              disseminating that information through an extensive
its comprehensive guidance to bankers and examiners,
                                                                              program of publications and outreach. Finally,
helping them respond to emerging risks. It reviewed
                                                                              the OCC worked alongside other federal agencies
and revised procedures to ensure that banks operate in
                                                                              to implement Dodd–Frank and other regulatory
full compliance with fair lending, consumer protection,
                                                                              initiatives to create stronger, more resilient financial
information security, and Bank Secrecy Act/Anti-
                                                                              institutions, more transparent financial markets, more
Money Laundering (BSA/AML) requirements. It
                                                                              robust consumer protections, and more effective
continued to root out and require correction of unsafe
                                                                              instruments to deal with troubled or insolvent banks.
and unsound practices in the origination and servicing
of mortgage loans. It monitored and analyzed the                              Supervisory Initiatives
health of the economy and the banking system,
                                                                              The OCC’s mission has always been to ensure that
                                                                              the financial institutions under its supervision are both
                                                                              safe and sound. Safe banks operate within all legal
3
 Statement of Thomas J. Curry, Comptroller of the Currency, Committee
on Banking, Housing, and Urban Affairs, U.S. Senate, June 6, 2012,
                                                                              and regulatory boundaries and protect the interests of
www.occ.gov. All citations in this report’s footnotes that refer to the OCC   depositors, shareholders, employees, and the citizens
Web site can be found on the About the OCC, News and Issuances, or
Publications pages.                                                           who depend on them and stand behind them. Sound
4
 Unless otherwise noted, all references to 2012 refer to the fiscal year
beginning October 1, 2011, and ending September 30, 2012.


	                                                                                                     Section One: Year in Review	              7
                                                                           The OCC’s
                                                                           Supervisory Programs
                                                                           The OCC’s midsize and community bank supervision
                                                                           program is built around a network of local field
                                                                           offices in more than 60 cities throughout the United
                                                                           States. Each bank is assigned to an examiner
                                                                           who continuously monitors the bank’s condition
                                                                           and serves as the focal point for communications
                                                                           between the OCC and the bank. This approach
                                                                           ensures that midsize and community banks receive
                                                                           the benefits of highly trained examiners with local
                                                                           knowledge and experience, along with the resources
                                                                           and specialized expertise provided by a nationwide
                                                                           organization. Using a common framework and set
                                                                           of expectations, examiners tailor their supervision
                                                                           of each bank to its individual risk profile, business
                                                                           model, and management strategies.
                                                                           The OCC’s large bank supervision program is
                                                                           headquartered in Washington, D.C., providing a
                                                                           national perspective that facilitates coordination
                                                                           across large institutions. It is based on a continuous,
banks operate as responsible businesses, earning                           on-site presence at each of the United States’ 19
returns sufficient to attract investment, competent                        largest banking companies. At each large bank,
management, and customer support.                                          an Examiner-in-Charge manages a staff of some
                                                                           of the OCC’s most seasoned examiners. They are
Once viewed as an intermittent process that began                          supported by economists, legal staff, and various
                                                                           policy and subject matter specialists.
when the agency’s examiners arrived at a bank and
ended when they departed, bank supervision is now a                        On-site examination teams study the objectives
                                                                           of the bank and its lines of business, the key risks
continuous and comprehensive process scaled to the                         it faces, and the controls that are put in place to
size, condition, and complexity of each institution. The                   manage them. Examiners assess the levels of risk
OCC assesses banks’ conditions and risk-management                         in the bank and the quality of risk management
                                                                           over the course of the examination cycle. Finally,
capabilities, performs ongoing assessments of the
                                                                           examiners are charged with communicating
health of the market or markets within which banks                         examination findings, concerns, and ratings. The
operate, develops and refines regulations and guidance                     examiners also ensure that corrective actions are
based on the requirements of law and the conditions in                     taken through the supervisory process or through
                                                                           appropriate enforcement actions. OCC supervisory
the industry, and regulates the industry’s operational                     staff will continue to focus on the achievement of
and competitive structure through the agency’s                             five heightened expectations for the 19 large banks:
licensing activities.                                                      •	 Board willingness to provide a credible challenge
                                                                              to management decisions
The information gathered from the supervisory activity                     •	 Talent management and compensation processes
at each bank enables the agency’s four districts and                       •	 Defining and communicating risk appetite across
its Washington, D.C., headquarters to monitor the                             the company
                                                                           •	 Development and maintenance of strong audit
system’s overall safety and soundness, focusing                               and risk management functions
operational and policy responses on those banks,                           •	 Board responsibility to preserve the sanctity of
banking activities, and financial markets that pose the                       the national bank charter
most significant challenges. The OCC calls this system
risk-based supervision, and it defines the agency’s
approach to its mission.

8       Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2012
Assessing Risk
Banking is essentially the business of risk
management. A bank’s success depends on its ability
to navigate the multiple risks inherent in the banking
business.

Banks must contend with credit risk—the possibility
that borrowers will fail to repay in accordance with
the terms of their loan agreements. They deal with
interest rate risk (IRR), which requires them to manage
disparities between what they pay for funds and
what their customers pay for the use of funds. Banks
face liquidity risk to the extent that they are able or
unable to meet their immediate financial obligations
to customers and counterparties. Compliance risk
relates to the damage that can result from failure to
heed the laws and regulations that banks must follow.
Reputation risk arises when a bank offers products or
services that involve practices that deviate from the
bank’s standards, and it increases with poor service,        remedies that include designation of a “matter
inappropriate sales recommendations, or violations of        requiring attention” by the bank, restrictions on
consumer law, any of which may result in litigation,         future activity, CMPs, removal from office of bank
adverse publicity, and loss of business.                     employees, or revocation of a bank’s charter.5
Market risk refers to the risk inherent in banks’            At the conclusion of every community bank
trading activities. Strategic risk flows from changes        examination, the Examiner-in-Charge conducts a
in regulatory mandates, economic conditions, the             meeting with the board of directors to discuss the
competitive environment, and customer behavior               examination findings and OCC expectations.6 This
that challenge banks’ business models. Price risk            information provides bankers and directors with
involves the rise and fall in value of the securities in a   feedback about a bank’s condition and the quality
bank’s portfolio in response to market trends. Finally,      of its management. The OCC also relies on its
operational risk refers to the perennial hazard that         examination reports to form a coherent picture of risk
the systems, manual or electronic, that banks depend         trends throughout the financial system, which in turn
on may prove faulty or inadequate or that employees          helps shape the agency’s supervisory policies.
may fail to perform assigned duties or follow proper
procedures.                                                  The OCC’s National Risk Committee (NRC) monitors
                                                             the condition of the banking system and emerging
Banks experience these risks in varying degrees,             threats to the system’s safety and soundness on an
reflecting each bank’s unique attributes of culture,         ongoing basis. The NRC communicates risk issues,
market, processes, risk tolerance, and products and          coordinates with other supervisory and policy risk
services. Effective bank supervision, therefore,             groups throughout the OCC, and develops policy
requires a customized evaluation of the unique               recommendations. Its members are drawn from a
combinations of risk to which a bank is exposed and a        broad spectrum of OCC specializations in bank
supervisory approach tailored to the bank’s particular       supervision, economics, law, and policy, and its
circumstances and risk profile.                              findings shape the OCC’s supervisory policies and the
                                                             guidance that implements those policies.
Depending on the nature and severity of the
supervisory problems that they encounter, OCC                5
                                                                 “Bank Supervision Process,” Comptroller’s Handbook, www.occ.gov.
examiners may resort to a range of supervisory               6
                                                              OCC examiners of large and midsize banks provide regular feedback to
                                                             bankers and boards of directors.


	                                                                                        Section One: Year in Review                 9
                                                                                 cautious consumers have crimped loan demand
                                                                                 and suppressed bank income. The report raises the
                                                                                 possibility that earnings pressures, higher regulatory
                                                                                 costs, and reduced fee income could prompt banks
                                                                                 to take on additional credit risk and cut back on
                                                                                 essential systems and processes, which would increase
                                                                                 operational risk.

                                                                                 Managing Credit Risk
                                                                                 The OCC views credit risk as “the primary financial
                                                                                 risk in the banking system. … [It] exists in virtually
                                                                                 all income-producing activities. How a bank selects
                                                                                 and manages its credit risk is critically important to
In 2012 for the first time, the NRC published its                                its performance over time; indeed, capital depletion
findings in the Semiannual Risk Perspective, a report                            through loan losses has been the proximate cause of
that evaluates threats to bank safety and soundness.7                            most institution failures.”8 The amount of credit risk
This report examines the operating environment for                               embedded in its balance sheet and how well that risk
banks, looks at their earnings and performance, and                              is controlled are thus critical determinants of a bank’s
addresses key risk factors, including trends in credit,                          overall safety and soundness.
funding, liquidity, and interest rate exposures, and the
regulatory climate.                                                              Banks employ different strategies to control credit risk.
                                                                                 They may make fewer loans or become more selective
The spring 2012 report focused on three major risk                               or restrictive about the loans they do make. They may
concerns: the aftereffects of the recent housing-                                limit their exposure to less creditworthy borrowers and
driven credit boom-bust cycle; the challenges to                                 to particular economic and geographic segments in
banking industry revenue growth in a post-recession,                             order to reduce the risk associated with excessive asset
slow-growth economy; and the potential that banks                                concentrations. They may tighten loan structures and
may take excessive risks in an effort to improve                                 impose more restrictive covenants, requiring additional
profitability.                                                                   or higher-quality collateral, and set more rigorous
The report found that large banks with extensive                                 conditions on how and when borrowers may draw
mortgage operations continued to be challenged by the                            upon funds. They may also bolster capital and reserves
remediation costs, record penalties, and reputational                            against loan losses.
damage caused by previous conduct and by the                                     The OCC monitors credit risk at the management
continuing backlog of severely delinquent and                                    level, where institutions determine their tolerance for
in-process-of-foreclosure mortgages.                                             risk and establish the policies that govern extensions
Asset-quality indicators showed improvement across                               of credit, and at the operational level, where loans
small and large banks, although housing-related                                  are evaluated under bank-approved guidelines. The
loans continued to experience above-average rates of                             structure and pricing of the loan products that emerge
delinquency and charge-off. Commercial real estate                               from bank credit analysis reflect the operational
performance improved, but vacancy rates and the level                            integrity and direction of credit risk in the bank.
of problem assets remained high—a particular concern                             For 18 years, the OCC has been polling its examiners
for many community lenders.                                                      about credit underwriting practices in the banks they
Many of the challenges facing bankers stemmed from                               supervise and publishing the results as the Survey of
the slow recovery of the national and global economy,                            Credit Underwriting Practices.9 In 2012, the survey
the report found. Persistent unemployment and
                                                                                 8
                                                                                     “Rating Credit Risk,” Comptroller’s Handbook, www.occ.gov.
7
    Semiannual Risk Perspective, spring 2012, www.occ.gov.                       9
                                                                                     2012 Survey of Credit Underwriting Practices, www.occ.gov.


10           Office of the Comptroller of the Currency       |   Annual Report Fiscal Year 2012
                                                             likely increase for 25 percent of the loan products,
                                                             decrease for 24 percent, and remain unchanged for
                                                             51 percent. Similar to the 2011 survey results, the
                                                             2012 survey indicated that the majority of banks
                                                             generally apply the same underwriting standards to
                                                             loans underwritten with the intent to hold as to those
                                                             underwritten with the intent to sell.

                                                             The survey’s finding that underwriting standards for
                                                             leveraged-lending products had eased highlighted
                                                             one area of particular regulatory concern in 2012.
                                                             Leveraged lending is a term broadly used to describe
                                                             a type of corporate finance used for mergers and
                                                             acquisitions, business recapitalization and refinancing,
                                                             equity buyouts, and business or product line build-
                                                             outs and expansions. In these transactions, debt
                                                             is commonly used as an alternative to equity for
                                                             financing business expansions and acquisitions.
                                                             Properly used, leveraged loans can support business
                                                             growth and increase shareholder returns.10

                                                             Only 15 percent of banks covered in the survey were
                                                             reported to have engaged in leveraged lending, and
                                                             they were almost exclusively large and midsize banks.
                                                             But what stood out in 2012—as it did in 2011—was
                                                             the pronounced trend toward easing underwriting
                                                             standards in that product segment. Thirty-eight percent
                                                             of the leveraged lenders covered in the survey eased
incorporated responses from examiners at 87 banks            underwriting; none tightened. Moreover, leveraged-
with $3 billion or more in assets, totaling $4.6 trillion,   loan volumes, which had dropped off sharply during
or 91 percent of all loans in the federal banking            the financial crisis, rebounded strongly, magnifying
system. The study covered 11 commercial and seven            the potential impact of the softer standards used to
retail loan products.                                        underwrite these loans.

Seventy percent of examiners reported no change in           Responding to this trend in its early stages, the OCC
underwriting standards for commercial loans since            participated in the formulation of proposed revised
the previous survey. Some easing of underwriting             interagency guidance that seeks to focus lenders’
standards, however, was noted within certain                 attention on the specific risk-management challenges
commercial and retail products, including indirect           associated with leveraged lending. The guidance
consumer loans, credit cards, large corporate, asset-        assigned explicit responsibility to bank managers and
based lending, and leveraged loans. Easing generally         boards of directors for establishing thresholds for risk,
took the form of lower pricing, lower credit score cut-      for developing effective control systems, and for acting
offs, and reduced collateral requirements. Examiners         decisively when an institution’s established threshold
found that lenders that eased underwriting standards         for risk is exceeded. The guidance also outlined the
typically were motivated by a perception that the            banking agencies’ expectations for leveraged-lending
economic outlook had improved, by a modest increase          underwriting standards, emphasizing “that the business
in competition for the same loans, by a desire for           premise for each transaction should be sound and its
growth, and by increased market liquidity. Over the
next 12 months, examiners believe, credit risk will
                                                             10
                                                                  “Leveraged Lending,” Comptroller’s Handbook, www.occ.gov.


	                                                                                        Section One: Year in Review          11
                                                                           job creation.12 The OCC’s approach to community
                                                                           bank supervision recognizes that these institutions
                                                                           face credit risk management challenges that are very
                                                                           different from those facing larger, more-diversified
                                                                           financial companies.

                                                                           Community banks are especially susceptible to
                                                                           concentration risk. The OCC defines an asset
                                                                           concentration as a pool of loan exposures “whose
                                                                           collective performance has the potential to affect a
                                                                           bank negatively even if each individual transaction
                                                                           within a pool is soundly underwritten.”13 Smaller
                                                                           banks are inherently more sensitive to the performance
                                                                           of the smaller number of individual credits they
capital structure should be sustainable, irrespective                      hold. Indeed, poorly managed asset concentrations,
of whether underwritten to hold [in the bank’s loan                        primarily in acquisition, development, and
portfolio] or distribute.”11 The comment period for the                    construction of commercial real estate, have been
revised leveraged-lending guidance closed in June; the                     responsible for the majority of community bank
final guidance was expected to be released in the fall                     failures over the past three years.
of 2012.
                                                                           In a speech before the CRE Finance Council,
In 2012, several broad measures of overall credit risk                     Comptroller Curry acknowledged that concentrations
among banks showed signs of improvement. Asset                             are “a fact of life.” He urged community banks to
quality improved; delinquency and charge-off rates                         carefully manage their concentration risk by working
fell; and banks were able to lower provisions for loan                     with troubled borrowers to get and keep them
losses, increasing the resources available for their own                   current through hard times, monitoring concentration
and their customers’ use.                                                  exposures, maintaining appropriate loan-loss reserves,
Yet, as noted above, banks face risk from many                             and taking appropriate charge-offs when repayment
sources that could affect the collectability of loans.                     becomes unlikely.14
The OCC carefully monitored bank reserves                                  To guide examiners in helping banks manage
throughout the year to ensure that they were adequate                      concentration risk, the OCC issued a revised
to cover probable loan losses.                                             “Concentrations of Credit” booklet of the
Banks in parts of the country that had yet to participate                  Comptroller’s Handbook.15 The new publication
in the national economic recovery continued to                             provides an enhanced definition of a credit
contend with higher levels of problem loans. Certain                       concentration to encourage consideration of more than
loan products, including commercial real estate,                           just the dollar amount of exposure and places renewed
residential real estate, and home equity loans,                            emphasis on stress testing—the use of models that
continued to underperform other types of loans                             project financial institution performance in various
nationwide.                                                                economic scenarios—to identify and quantify credit
                                                                           concentration risks.
The weakness in those loan categories has been
especially challenging for the community banks                             12
                                                                             For more on OCC programs to encourage lending to small business, see
                                                                           the Annual Report FY 2011, 26–27, www.occ.gov.
that compose the overwhelming majority of OCC-
                                                                           13
                                                                              “Concentrations of Credit,” Comptroller’s Handbook, www.occ.gov. See
supervised institutions. Community banks provide                           also Office of the Comptroller of the Currency, “Concentrations of Credit:
essential support for the small businesses that play an                    Revised Booklet,” bulletin 2011-48, December 13, 2011, www.occ.gov.
important role in national economic development and                         Remarks by Thomas J. Curry, CRE Finance Council, June 13, 2012,
                                                                           14

                                                                           www.occ.gov.
 Office of the Comptroller of the Currency, “Request for Comment on
11                                                                         15
                                                                              “Concentrations of Credit,” Comptroller’s Handbook, www.occ.gov. See
Revised Leveraged Lending Guidance,” bulletin 2012-9, March 30, 2012,      also Office of the Comptroller of the Currency, “Concentrations of Credit:
www.occ.gov.                                                               Revised Booklet,” bulletin 2011-48, December 13, 2011, www.occ.gov.


12        Office of the Comptroller of the Currency    |   Annual Report Fiscal Year 2012
                                                                           discussion was especially timely for small federal
                                                                           savings associations in their efforts to implement an
                                                                           independent IRR measurement process for earnings
                                                                           and capital at risk following the migration from the
                                                                           former OTS’s IRR model at the end of 2011. The OCC
                                                                           conducted outreach to federal savings associations
                                                                           focused on the OCC’s IRR management expectations.

                                                                           Managing Liquidity Risk
                                                                           Bankers were once able to rely on a core of stable,
                                                                           low-cost consumer deposits to fund their loans and
                                                                           investments. But deregulation and the end of interest
                                                                           rate ceilings required bankers to look beyond their
                                                                           retail deposit base to wholesale sources of funding,
                                                                           such as brokered deposits, repurchase agreements, and
                                                                           correspondent-bank and federal-funds lines of credit.
                                                                           Managing the mix of retail deposits and wholesale
                                                                           funding to meet expected liquidity needs has become a
                                                                           critical challenge for bankers.

                                                                           In 2012 the OCC issued a revised “Liquidity”
                                                                           booklet in the Comptroller’s Handbook providing
                                                                           supplementary guidance to examiners and bankers on
Comptroller Curry discusses the condition of the U.S. banking
system and operational risk at an economic and financial forum in
                                                                           assessing the quantity of liquidity risk exposure and
Washington, D.C.                                                           the quality of liquidity risk management. It placed
                                                                           new emphasis on the importance of maintaining
                                                                           appropriate levels of highly liquid assets and planning
Managing Interest Rate Risk                                                for contingency funding in case wholesale liquidity
Some degree of IRR is inherent in the business of                          becomes unavailable.17
banking. Banks are expected to have sound risk
management practices in place to measure, monitor,
                                                                           Managing Operational Risk
and control IRR exposures. In the current low interest-                    It was “an extraordinary thing,” Comptroller Curry
rate environment, many banks have experienced a                            said in a May speech. “Some of our most seasoned
surge in deposit growth, which makes it particularly                       supervisors, people with 30 or more years of
important that bankers reassess their IRR modeling                         experience in some cases, tell me that this is the first
assumptions.                                                               time they have seen operational risk eclipse credit
                                                                           risk as a safety and soundness challenge.”18 In 2012,
In January 2012, the financial regulators issued                           operational risk and the consequences of operational
Frequently Asked Questions (FAQ) on the 2010                               risk management failure manifested themselves in
interagency advisory on IRR management.16 This                             many forms.19
document addresses critical risk management practices
including robust and meaningful stress testing,
assumption development that reflects the institution’s
experience, and comprehensive model validation. This


                                                                           17
                                                                                “Liquidity,” Comptroller’s Handbook, www.occ.gov.
                                                                            Remarks by Thomas J. Curry, Exchequer Club, May 16, 2012,
                                                                           18
16
  Office of the Comptroller of the Currency, “FAQs on 2010 Interagency     www.occ.gov.
Advisory on Interest Rate Risk Management,” bulletin 2012-5, January 12,
2012, www.occ.gov.                                                         19
                                                                                A complete list of OCC enforcement actions is on page 33.


	                                                                                                        Section One: Year in Review        13
                                                                          As stipulated in the engagement letters that defined
                                                                          their responsibilities, the independent consultants are
                                                                          reviewing a base sample of more than 142,000 loan
                                                                          files from the servicers’ portfolios. That includes every
                                                                          loan in certain categories of foreclosure cases—for
                                                                          example, borrowers subject to the Servicemembers
                                                                          Civil Relief Act (SCRA). The independent consultants
                                                                          are expected to review additional loans as the process
                                                                          continues and as patterns that require additional
                                                                          investigation come to light.

                                                                          Beginning in November 2011, the OCC and the
                                                                          servicers’ independent consultants launched an
                                                                          extensive campaign to inform eligible borrowers of
Implementing the Mortgage Foreclosure                                     the opportunity to request a review, free of charge, if
Agreement                                                                 they believed they had been harmed by the practices
In April 2011, the OCC and other federal banking                          of mortgage servicers subject to the consent order.
agencies imposed sweeping enforcement actions                             Nearly 4.4 million letters were sent to borrowers who
against 14 large mortgage servicers for having engaged                    had been in the process of foreclosure in 2009 or 2010.
in unsafe and unsound mortgage servicing and                              Additional follow-up mailings were sent to
foreclosure practices in 2009 and 2010. The consent                       borrowers who did not respond. A Web site,
orders require the companies to hire independent                          https://independentforeclosurereview.com, and a
consultants who, under the regulators’ supervision,                       toll-free telephone number were created to provide
identify borrowers injured financially as a direct result                 information and answer questions about the claims
of errors that occurred during the foreclosure process                    process. Paid advertising ran in more than a thousand
and provide those borrowers with one or more forms                        publications and on radio stations nationwide; public
of remediation. The order also requires the companies                     service announcements ran in print and broadcast
to improve their servicing and foreclosure practices to                   media; servicers funded direct outreach through
protect future borrowers from such injury. The actions                    a variety of community groups; and the OCC and
sought to fulfill the OCC’s commitment to “fix what                       the Federal Reserve held training conferences for
was broken; identify borrowers who were financially                       community and housing advocates and Web seminars
harmed; provide compensation for that injury; and,                        to help educate housing counselors and increase
make sure this doesn’t happen again.”20                                   awareness of the foreclosure review process.21

When an injured borrower is identified—either                             To promote the broadest participation possible, the two
through the borrower’s request for review or as the                       agencies extended the deadline for submitting requests
result of a file review conducted by the independent                      for independent review to December 31, 2012.22
consultants—the borrower may receive remediation
                                                                          While the enforcement action provides remedies for
that could consist of a lump-sum payment, a
                                                                          injuries suffered in the past, it also contains provisions
suspension or rescission of a foreclosure, a loan
                                                                          designed to improve mortgage-servicing processes
modification or other loss mitigation assistance,
                                                                          going forward. The order requires servicers
correction of credit reports, or correction of deficiency
amounts and records. Under the orders, there are no
limits to the overall amount of compensation that can
be paid out or the remediation action offered.                            21
                                                                            Office of the Comptroller of the Currency, “Interim Status Report:
                                                                          Foreclosure-Related Consent Orders,” June 2012, www.occ.gov. This
                                                                          publication updates the previous interim report published in November
                                                                          2011.
20
  Statement of Morris Morgan, Deputy Comptroller for Large Bank           22
                                                                            Office of the Comptroller of the Currency, “Deadline to Request
Supervision, Committee on Oversight and Government Reform,                Independent Foreclosure Review Extended to December 31,” news release
U.S. House of Representatives, March 19, 2012, www.occ.gov.               2012-117, August 2, 2012, www.occ.gov.


14        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
                                                               Initiatives to Promote
                                                               Financing for Permanent
                                                               Housing
                                                               As a matter of both good business and public re-
                                                               sponsibility, banks are active supporters of projects
                                                               that enhance the well-being of the communities they
                                                               serve. For its part, the OCC disseminates industry
                                                               best practices, promotes public-private collabora-
                                                               tion, and informs the institutions it supervises of the
                                                               obligations and opportunities available under the
                                                               Community Reinvestment Act and other legislation.
to implement 97 separate corrective measures to                One OCC initiative in 2012 focused on ways that
address specified unsafe and unsound practices.                banks can help to address the plight of the men,
Those measures fall into several broad categories:             women, and children who lack permanent homes.
                                                               Although the percentage of the population defined
developing comprehensive action plans; building
                                                               as homeless has declined over the last decade, the
strong compliance mechanisms; enhancing third-party            problem remains acute.
management; upgrading management information
                                                               Studies show that one of the best ways to move
systems; and reforming the Mortgage Electronic                 toward the national goal of ending chronic home-
Registration System, which tracks changes in                   lessness by 2015 is to provide permanent support-
mortgage servicing rights and ownership interests.             ive housing (PSH)—an approach that combines af-
                                                               fordable rental housing with services to help tenants
Although national mortgage servicers have reported             remain in their homes and avoid becoming home-
significant progress in accomplishing these corrective         less again. The OCC’s February 2012 Community
measures, the OCC is continuing to monitor, validate,          Developments Investments newsletter described
and, as necessary, require the correction of work under        the innovative strategies being employed by banks
                                                               to support communities that have developed PSH
way to implement servicers’ action plans.                      plans. Some of these strategies take advantage of
                                                               the Low-Income Housing Tax Credit and New Mar-
                                                               kets Tax Credit programs to invest in equity funds
Bank Secrecy Act and Anti-Money                                that not only build and manage housing projects but
Laundering Compliance                                          also provide a range of services to their residents, in-
                                                               cluding mental health counseling, substance abuse
Since it was enacted in 1970, the BSA has required             treatment, educational programs, and job training.
banks to maintain records and file reports that                In other cases, banks invest directly in PSH projects
                                                               through their own community development depart-
were of use to law enforcement and regulators in               ments or aid the effort by transferring foreclosed
combating money laundering and other financial                 multifamily properties to developers for renovation.
crimes. In the last four decades, BSA/AML regulatory           Banks also make cash grants and contributions of
requirements and supervisory expectations have                 their employees’ time and expertise to nonprofit
                                                               organizations that help people who are homeless.
increased significantly, requiring institutions to             Efforts like these may receive positive consideration
make substantial improvements in their BSA/                    under the Community Reinvestment Act.23
AML compliance programs. Many institutions have
invested in suspicious activity monitoring systems
to assist in identifying suspicious activity related
to money laundering and terrorist financing. These
systems also are used to report suspicious activity

                                                          23
                                                            Office of the Comptroller of the Currency, Community Developments
                                                          Investments, “Ending Homelessness: Financing Permanent Supportive
                                                          Housing,” February 2012, www.occ.gov.


	                                                                                   Section One: Year in Review                 15
                                                                         •	   increased the resources and expertise devoted to
                                                                              BSA/AML supervision;
                                                                         •	   improved examiner training on emerging threats
                                                                              and vulnerabilities;
                                                                         •	   kept the financial services industry abreast of OCC
                                                                              expectations;
                                                                         •	   developed enhanced risk identification and
                                                                              analysis tools for the industry’s use;
                                                                         •	   stepped up formal coordination with other
                                                                              concerned federal agencies;
                                                                         •	   refined its testing and sampling techniques to
                                                                              ensure that banks effectively identify suspicious
                                                                              transactions; and
                                                                         •	   brought strong enforcement actions against banks
                                                                              found to be in non-compliance with BSA/AML
                                                                              requirements.

                                                                         In the past 10 years, the OCC has issued more than
                                                                         180 formal enforcement actions based in whole or
                                                                         in part on BSA/AML violations, including 24 during
                                                                         2012.

                                                                         In April 2012, for example, the OCC issued a consent
                                                                         cease-and-desist order against one large national bank
                                                                         for violations of the BSA and underlying regulations.
                                                                         The OCC found that the bank’s BSA compliance
OCC employees provide information to participants on Financial           program had deficiencies with respect to internal
Literacy Day on Capitol Hill.
                                                                         controls, customer due diligence, independent BSA
                                                                         auditing function, monitoring of remote deposit
to law enforcement agencies and to ensure that such                      capture and international cash letter instrument
transactions do not involve entities subject to Office of                processing, and suspicious activity reporting. The
Foreign Asset Control sanctions.                                         order required the bank to take comprehensive
                                                                         corrective actions to ensure the independence of
The individuals whose behavior the BSA was enacted                       the bank’s compliance staff, to automate and make
to stop, however, also have become more determined                       accessible all customer due diligence processes, and
and sophisticated. Today, the challenge comes not only                   to conduct a review of its remote deposit capture
from drug cartels and criminal organizations seeking                     activity.24
to launder money through the U.S. financial system
but also from terrorists and rogue regimes.                              The OCC’s supervision and enforcement actions with
                                                                         respect to HSBC Bank USA were the focus of a July
BSA and money-laundering problems have been                              2012 report by the Senate Committee on Homeland
on the rise throughout the financial system, and the                     Security and Governmental Affairs’ Permanent
OCC has worked hard to stay ahead of the growing                         Subcommittee on Investigations. The report criticized
challenge presented by BSA compliance. In the last                       the OCC for not taking action soon enough and made
year, the agency has

•	   updated and enhanced its BSA/AML examination
     procedures;
                                                                         24
                                                                           Office of the Comptroller of the Currency, “OCC Issues Cease and
                                                                         Desist Order Against Citibank, N.A.,” news release 2012-57, April 5, 2012,
                                                                         www.occ.gov.


16       Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
specific recommendations to the OCC to improve
its BSA/AML supervision, all of which are being
implemented.

The OCC published a supervisory memorandum
clarifying the composition and function of its Large          Cultivating OCC Skills
Bank Review Team, which contributes independent               and Leadership
perspective to the supervisory process to promote
                                                              The increased complexity of the financial regulatory
and ensure consistency in BSA/AML compliance and
                                                              system—and the steady retirement from the work-
enforcement in large banks. The OCC also refined              place of experienced OCC employees—make it
its approach to reporting BSA/AML violations in its           imperative that the OCC identify, train, and nurture
examination reports and reaffirmed that because of            the next generation of professionals, who will inherit
                                                              responsibility for the financial system’s supervision.
the serious risk that such violations pose, examiners         The OCC has a number of initiatives under way to
generally will downgrade the management component             ensure that the agency is building the specialized
of the bank’s rating under the Uniform Financial              skills it needs to fulfill its important mission—not just
Institutions Rating System when serious BSA/AML               next month or next year, but for decades to come.

deficiencies are identified.                                  One example is the EXCEL program, which was
                                                              launched in 2012 and is based in the OCC’s Large
Consumer Compliance                                           Bank Supervision Department. EXCEL recruits
                                                              mid-level examiners committed to advancing their
Dodd–Frank enacted substantial changes in the                 expertise in one of seven specialty areas: asset
                                                              management, bank information technology, capital
regulation of consumer financial services. The law
                                                              markets, commercial credit, compliance, opera-
endowed the new Consumer Financial Protection                 tional risk, and retail credit. Successful candidates
Bureau (CFPB) with important responsibilities                 spend 12 to 24 months as part of a training team led
for rulemaking across the financial system and for            by a senior OCC examiner, receiving formal instruc-
                                                              tion in the selected specialty area and participating
enforcement and supervision of certain consumer               in specialized examinations of OCC large banks.
laws at banks with more than $10 billion in assets and        This accelerated development provides some of the
previously unregulated non-banks.                             OCC’s most talented but less-experienced examin-
                                                              ers with an important career-enhancing experience
Ensuring fair access and treatment of bank customers          and the agency with a cadre of high-level specialists
                                                              ready to step into leadership roles in the future.
remains a fundamental part of the OCC’s mission.
OCC examiners continue to evaluate compliance with
the Community Reinvestment Act (CRA) and flood
insurance rules in banks of all sizes, as well as all
consumer protection issues in banks with $10 billion     overlap. The agreement provided that the agencies
or less in assets. The agency takes comprehensive        would work together to schedule examinations, share
enforcement actions when necessary to protect            information, and avoid issuing conflicting supervisory
consumers’ rights.                                       directives.25

The partial transfer of consumer compliance              At the beginning of the fiscal year, the OCC processed
responsibilities to the CFPB underscored the             consumer complaints relating to large banks on the
importance of coordination and collaboration between     CFPB’s behalf while the CFPB developed internal
the CFPB and the federal banking agencies. In            systems capable of processing such complaints
2012, the OCC, along with the Board of Governors         independently. This process is now complete; the
of the Federal Reserve System, the FDIC, and the         CFPB is processing all consumer complaints under its
National Credit Union Administration, agreed to          jurisdiction except for mortgage foreclosure
a Memorandum of Understanding with the CFPB
to coordinate key aspects of the supervision of
banks with more than $10 billion in assets, to avoid
                                                         25
                                                           Office of the Comptroller of the Currency, “Agencies Sign Memorandum
unnecessary supervisory regulatory burden and            of Understanding on Supervisory Coordination,” news release 2012-85,
                                                         June 4, 2012, www.occ.gov.


	                                                                                  Section One: Year in Review              17
complaints submitted against banks with more than                           about the benefits these products provided. The OCC
$10 billion in total assets operating under the mortgage                    imposed a $35 million CMP against the bank and,
foreclosure consent order. Throughout 2012, the                             together with the CFPB, ordered the bank to provide
OCC’s Customer Assistance Group continued to                                $150 million in restitution to the approximately
process questions and complaints relating to consumer                       2.5 million consumers who were affected by the
issues within the OCC’s purview, which includes                             bank’s practices.27
the BSA, the CRA, flood insurance rules, and all
                                                                            In another example of interagency cooperation on
consumer protection issues relating to banks with less
                                                                            behalf of consumers, the OCC worked with the Justice
than $10 billion in assets.
                                                                            Department in taking action against a large national
The importance of interagency collaboration was                             bank for violations of the federal fair lending laws.
highlighted in a number of joint actions taken in                           The bank was charged with a pattern of discrimination
2012 to protect consumers from unscrupulous and                             in which African-American and Hispanic borrowers
illegal practices. In coordination with the U.S.                            were allegedly steered to higher-priced subprime loans
Department of Justice, the OCC took enforcement                             between 2004 and 2008. As a result of the agencies’
actions against two large national banks for violations                     investigations, the Justice Department was able to
and compliance deficiencies related to the SCRA,                            enter into a settlement whereby the bank agreed to pay
the law that provides certain financial protections to                      $175 million in compensation, provide assistance to
active-duty servicemembers. OCC examiners found                             borrowers, and conduct an internal review of its retail
that the two banks had violated a number of SCRA                            mortgage lending, providing additional compensation
provisions—for example, by denying legitimate claims                        to minority borrowers as appropriate. The OCC’s
for interest rate relief under SCRA and pursuing                            investigation and the Justice Department’s action,
credit card and mortgage judgments against SCRA-                            Comptroller Curry said, “should send a strong message
covered individuals. The OCC’s actions required                             to every institution that lending discrimination in all its
the banks to engage an independent firm to identify                         forms will not be tolerated.”28
servicemembers who were eligible for SCRA benefits
or protections and did not receive them, and to make                        Implementing Dodd–Frank
restitution to them. This case also illustrated the                         In 2012, the OCC made substantial progress toward
importance of adequate control of third-party vendors,                      meeting Dodd–Frank’s requirements, issuing a
which the two banks had engaged to market and                               final rule to remove references to credit ratings
service some of the consumer products connected with                        from OCC regulations, a rule on stress testing by
the SCRA violations.26                                                      financial institutions over $10 billion, a proposed
An OCC action against another large national bank                           rule on appraisals for higher-risk mortgage loans, an
for violations of section 5 of the Federal Trade                            interim final rule on lending limits for derivative and
Commission Act, which bans “unfair or deceptive acts                        securities financing transactions, and a proposed rule
or practices,” was undertaken in collaboration with the                     on proprietary trading (the Volcker rule). As noted
CFPB. The bank was cited for abuses in the sale and                         previously, working arrangements between the federal
marketing of products that purported to provide debt                        banking agencies and the new CFPB were coordinated
cancellation, debt suspension, and credit and identity                      and refined. The integration of the personnel,
protection services. Through the bank’s own agents                          functions, assets, and policies of the former OTS
and through third-party vendors retained by the bank,                       into the OCC continued beyond the July 21, 2011,
customers were subjected to high-pressure sales and                         transfer date. Also, through its outreach and oversight
retention tactics as well as false and misleading claims

                                                                            27
                                                                              Office of the Comptroller of the Currency, “OCC Assesses Civil Money
                                                                            Penalty Against Capital One, Orders Restitution to 2.5 Million Customers,”
                                                                            news release 2012-110, July 18, 2012, www.occ.gov.
 Office of the Comptroller of the Currency, “OCC Takes Actions Against
26

Capital One to Assure Servicemembers Receive Credit Protections for         28
                                                                              Office of the Comptroller of the Currency, “Comptroller Statement
Their Mortgages and Other Loans,” news release 2012-115, July 26, 2012,     Regarding Wells Fargo Fair Lending Settlement,” news release 2012-107,
www.occ.gov.                                                                July 12, 2012, www.occ.gov.


18        Office of the Comptroller of the Currency     |   Annual Report Fiscal Year 2012
     Strengthening Bank Capital and Harmonizing Capital Standards
     The rebuilding of the banking system since the fi-                  capital requirement, based on common equity, the
     nancial crisis has in large part been a story of rising             strongest kind of capital. In addition, the agencies
     bank capital—a bank’s cushion against unexpect-                     proposed to limit dividend and compensation pay-
     ed losses. Since 2009, the ratio of capital to total                outs if a bank does not hold equity capital beyond
     assets for banks has grown by nearly 40 percent,                    certain threshold amounts relative to risk-weighted
     boosting confidence in the strength and capability                  assets.
     of these institutions to continue serving customers
     and communities.                                                    In the second NPR, the agencies proposed to revise
                                                                         and harmonize rules for calculating risk-weighted
     The central importance of bank capital to safety and                assets in order to enhance risk sensitivity and ad-
     soundness has been the subject of a series of poli-                 dress weaknesses identified in recent years. These
     cy pronouncements from various quarters since the                   proposed revisions would be applicable to all bank-
     financial crisis began. The G20 governments, the                    ing organizations.
     Financial Stability Board, the Basel Committee on
     Banking Supervision, and other international bodies                 In the third NPR, the federal banking agencies
     have developed and introduced principles and stan-                  proposed to adopt certain aspects of the Basel
     dards to increase capital.                                          III framework as it applies to the largest and most
                                                                         complex organizations.
     While embracing much of the international capi-
     tal agenda, Dodd–Frank added requirements that                      In recognition of the substantial changes to the reg-
     cause the capital regime applicable to U.S. banks                   ulatory capital framework that had been proposed,
     to differ in some respects from those of other coun-                and to facilitate comment from and understanding
     tries. One difference, discussed elsewhere in this                  by smaller banks, the OCC, in conjunction with the
     report, relates to the role of credit ratings in eval-              other banking agencies, undertook efforts to ease
     uating creditworthiness. Another Dodd–Frank pro-                    the burden of analyzing the proposed rules. For ex-
     vision, known as the Collins Amendment, requires                    ample, the banking agencies separated the propos-
     that minimum capital standards apply to bank hold-                  als into the three NPRs noted above so that smaller
     ing companies as well as to banks, and that large                   banks could disregard the third NPR in its entirety.
     banks must face capital requirements that are no                    In addition, the agencies developed addendums to
     less stringent than smaller banks.29                                the first two NPRs summarizing them for smaller
                                                                         banks and identifying the elements that would apply
     The federal banking agencies, including the OCC,                    to those institutions. The agencies also built an esti-
     worked in 2012 to reconcile the provisions of Dodd–                 mator tool to help smaller banks assess the amount
     Frank with those of the third iteration of the Basel                of capital that might be needed to comply with the
     Committee’s international capital standards. In                     proposed standards. Finally, the OCC and the oth-
     June the OCC and other federal banking agencies                     er agencies also conducted extensive outreach in a
     issued three notices of proposed rulemaking (NPR)                   variety of forums and extended the comment period
     concerning implementation of the various capital                    to allow the industry more time to assess and com-
     rules for U.S. banks.30 In the first NPR, the agencies              ment on the proposals.
     proposed to adopt the new Basel III minimum




 Statement of John Walsh, Committee on Banking, Housing, and Urban
29

Affairs, U.S. Senate, March 22, 2012, www.occ.gov.
30
  Office of the Comptroller of the Currency, “Agencies Seek Comment on
Regulatory Capital Rules and Finalize Market Risk Rule,” news release
2012-88, June 12, 2012, www.occ.gov.


	                                                                                           Section One: Year in Review            19
                                                                              Rule on Credit Ratings
                                                                              Banks have long been permitted to purchase
                                                                              “investment grade” bonds and other debt instruments
                                                                              for their own investment accounts. Over the years,
     Rule on Risk-Based Capital                                               banks and regulators came to rely heavily on
     for Market Risk                                                          evaluations by credit-rating agencies to determine
                                                                              whether the investments under consideration were
     In 1988, the Basel Committee, the body that serves                       safe to hold. Unfortunately, during the financial crisis,
     as a forum for international cooperation on bank
                                                                              many highly rated securities, particularly private-label,
     supervisory matters, promulgated the first interna-
     tional agreement on bank capital standards. Eight                        mortgage-backed securities, performed poorly, and
     years later, in 1996, the committee developed addi-                      some ratings agencies gave dubious mortgage-backed
     tional standards on capital requirements for market                      securities higher ratings than they deserved, leaving
     risk—those risks to a bank’s trading activities that
     arise from fluctuations in interest rates, currency
                                                                              institutional and other investors with big losses. That
     exchange rates, and commodity and stock market                           experience prompted section 939A of Dodd–Frank,
     prices. The Basel Committee refined these stan-                          which required regulators to modify their definition
     dards after the financial crisis revealed weaknesses                     of “investment grade” to remove references to credit
     in market-risk management, and it boosted the cap-
     ital standards for market risk.31                                        ratings. As a result, the revised rule requires banks
                                                                              to undertake more comprehensive evaluations of the
     The OCC and other U.S. banking agencies largely
     adopted the new Basel standards in developing a                          quality of securities being considered for investment.
     final rule on risk-based capital for market risk. The
     OCC rule applies to banks with trading assets and                        On June 26, 2012, the OCC issued a final rule on credit
     liabilities that are more than 10 percent of total as-                   ratings, removing from its regulations all requirements
     sets or more than $1 billion. In accordance with                         that banks consider external credit ratings in making
     Dodd–Frank, U.S. banks may not use external cred-
     it ratings to calculate their capital charge for market                  an “investment grade” determination. “In other
     risk.32                                                                  words,” the rule states, “a security rated in the top four
     The final rule incorporates a revised definition of                      rating categories by [a nationally recognized statistical
     the trading positions subject to the market-risk                         rating organization] is not automatically deemed to
     capital charge and to requirements that affected                         satisfy the revised ‘investment grade’ standard.” Banks
     banks adopt more rigorous stress testing of cov-
                                                                              may continue using agency ratings in performing their
     ered positions, improved internal models, and high-
     er disclosure standards. The rule goes into effect on                    evaluations, however, to supplement their internal
     January 1, 2013.33                                                       credit risk management processes and other third-party
                                                                              analytical tools.34

                                                                              To facilitate this transition, the OCC simultaneously
activities, the OCC’s Office of Minority and Women                            released final guidance as an aid to banks, particularly
Inclusion, another Dodd–Frank initiative, promoted                            community banks and federal savings associations,
diversity in the workplace, in the ranks of OCC                               regarding the factors they should consider in their
contractors, and among OCC-regulated institutions.                            due diligence when assessing securities of different
                                                                              degrees of complexity. The OCC understands that
In all, the OCC undertook more than 100 projects to
                                                                              many smaller banks have lacked the capacity to
conform to the new law, either separately or with other
                                                                              perform the kind of independent credit analysis that
agencies.
                                                                              the regulation requires, and the guidance provides
                                                                              those institutions with a number of tools to assist them,
                                                                              including a matrix of factors to consider when banks
 Basel Committee on Banking Supervision, “Revisions to the Basel II
31

Market Risk Framework,” February 2011, www.bis.org/publ/bcbs193.htm.          perform these self-assessments.35
32
   Office of the Comptroller of the Currency, “Regulatory Capital-Basel
III and the Standardized and Advanced Approaches: Notice of Proposed           Office of the Comptroller of the Currency, “Alternatives to the Use of
                                                                              34

Rulemaking,” bulletin 2012-24, August 30, 2012, www.occ.gov.                  External Credit Ratings in the Regulations of the OCC: Final Rules and
                                                                              Guidance,” bulletin 2012-18, June 26, 2012, www.occ.gov.
 Testimony of Thomas J. Curry, Committee on Banking, Housing, and
33

Urban Affairs, U.S. Senate, June 6, 2012, www.occ.gov.                        35
                                                                                   Ibid.


20         Office of the Comptroller of the Currency      |   Annual Report Fiscal Year 2012
Rule on Stress Testing
The financial crisis proved the value of rigorous,
credible stress tests, such as those conducted in
2009 under the auspices of the Supervisory Capital
Assessment Program.36 These tests can help banks
identify weaknesses, withstand adversity, and maintain
public confidence.

Dodd–Frank requires annual stress testing in
institutions with assets of $10 billion to $50 billion
and twice-annual stress testing for banks that exceed
$50 billion. It further requires the primary regulator
of financial institutions subject to the stress testing
requirement to issue regulations that implement
the stress test requirements, define the methods for
                                                                           impact of adverse outcomes on their financial
stress testing, and set standards for the reporting and
                                                                           condition in a manner consistent with the institution’s
publication of each institution’s stress test results.
                                                                           risk profile.39
In October 2012, the OCC and the other federal
                                                                           Rule on Lending Limits
banking agencies released the Dodd–Frank-mandated
stress test rule. The implementation timeline calls                        In general, the OCC’s lending limits rule imposes
for the largest banks to implement stress testing                          specified limits on national bank and federal savings
immediately, while banks with $10 billion to                               association loans and extensions of credit to one
$50 billion in assets, which generally have less                           borrower. Section 610 of Dodd–Frank expanded the
experience with stress testing, are afforded a full year                   definition of loans and extensions of credit to include
before stress testing must begin.37                                        certain derivative instruments, repurchase agreements,
                                                                           reverse repurchase agreements, and securities
In addition, the OCC and the other federal banking                         lending or borrowing transactions. The goal is to
agencies issued guidance in May 2012 that discussed                        better regulate the large over-the-counter derivatives
the uses and merits of stress testing in specific areas                    market.40
of risk management for banks with assets greater
than $10 billion. The guidance outlines the general                        In June 2012, the OCC adopted an interim final rule
principles of a satisfactory stress testing framework                      that amended its lending limit rule to implement
and describes how banks should implement them. The                         Section 610. The rule provided a compliance date of
guidance also discusses the importance of stress testing                   January 1, 2013, to give banks time to adapt to the
in capital and liquidity planning and the importance                       new standard. The rule provides different options
of strong internal governance.38 The agencies noted                        for measuring the exposure of each transaction type,
that while the guidance and Dodd–Frank stress testing                      which are intended to reduce the regulatory burden for
rules do not apply to banks with less than $10 billion                     midsize and community banks.41
in assets, all banking organizations, regardless of size,
should have the capacity to analyze the potential


36
   For an account of the Supervisory Capital Assessment Program, see the   39
                                                                             Office of the Comptroller of the Currency, “Statement to Clarify
OCC’s Annual Report FY 2009, 11–12, www.occ.gov.                           Supervisory Expectations for Stress Testing by Community Banks,”
                                                                           May 14, 2012, www.occ.gov.
37
  Office of the Comptroller of the Currency, “Comptroller Curry’s
Statement Regarding FDIC Stress Test Rule,” news release 2012-143,         40
                                                                             Office of the Comptroller of the Currency, “OCC Issues an Interim Final
October 9, 2012, www.occ.gov.                                              Lending Limit Rule,” news release 2012-92, June 20, 2012, www.occ.gov.
 Office of the Comptroller of the Currency, “Agencies Finalize Large
38                                                                         41
                                                                             Office of the Comptroller of the Currency, “Lending Limits: Interim Final
Bank Stress Testing Guidance,” news release 2012-75, May 14, 2012,         Rule,” bulletin 2012-19, June 29, 2012, www.occ.gov. It is anticipated that
www.occ.gov.                                                               the compliance date will be extended when the final rule is adopted.


	                                                                                                      Section One: Year in Review                 21
                                                                            comment letters were received by the closing date.
                                                                            The agencies are now discussing the issues raised by
                                                                            commenters and are drafting revisions to the proposal.
                                                                            Financial institutions will have two years, or until
                                                                            July 21, 2014, at the latest, to conform their activities
                                                                            to the statutory prohibitions and any final rule that is
                                                                            issued, unless an extension is granted by the Federal
                                                                            Reserve.45

                                                                            Questions about the scope of the Volcker rule were
                                                                            highlighted by events at the nation’s largest bank,
                                                                            JP Morgan Chase (JPMC). In late April and early May,
                                                                            JPMC experienced large losses that resulted from a
                                                                            sudden deterioration of positions taken by the bank
                                                                            that began as a program to hedge against credit risk.
The Volcker Rule                                                            These losses prompted a comprehensive review of the
Section 619 of Dodd–Frank, known as the Volcker                             adequacy and rigor of the bank’s risk management
rule, prohibits banks from engaging in short-term                           practices and of the OCC’s oversight of the bank.
proprietary trading of securities and derivatives for                       The events also raised questions about whether the
the banks’ own account. It also prohibits banks from                        activities in question would have been prohibited
owning or having certain relationships with hedge                           activities under section 619 of Dodd–Frank.
funds or private equity funds.
                                                                            During congressional hearings on June 6, Comptroller
In developing and implementing regulations, the OCC                         Curry discussed the OCC’s ongoing review of its
and other federal agencies had to consider how to                           supervision of JPMC and the relationship between
distinguish impermissible proprietary trading from                          JPMC’s difficulties and the Volcker rule.46
permitted market-making-related activities, hedging,
                                                                            Transfer of the Former OTS
underwriting, and transactions on behalf of customers.
A second important issue was how to identify the                            On July 21, 2011, under the authority of Title III of
hedge funds and private equity funds that would be                          Dodd–Frank, most functions of the OTS transferred to
covered by the Volcker rule, including whether some                         the OCC. From that day forward, the OCC has been
kinds of securitization would be considered “hedge                          responsible for the examination, supervision, and
funds” and thus subject to Volcker rule restrictions.42                     regulation of federal savings associations.

These complex questions led to a proposed                                   Important work remained to be done in 2012 to
rulemaking that was released for public comment                             finalize the transfer of personnel, functions, and
on October 11, 2011. Running to almost 300 pages,                           assets. The integration of OCC and OTS regulations
the proposal included nearly 400 questions on issues                        and the merger of more than 1,000 OTS supervisory
still to be resolved.43 In light of public interest in                      policies into a consolidated OCC policy framework
the proposal, the federal banking agencies agreed                           continued, with the goal of eliminating duplication,
to extend the deadline for comments for one month,                          reducing unnecessary burden, and providing consistent
from January to February 2012.44 More than 19,000                           treatment, where appropriate, for both national banks
42
  Statement of John Walsh, Acting Comptroller of the Currency,              and federal savings associations.47
Subcommittees on Capital Markets and Government Sponsored Enterprises
and on Financial Institutions and Consumer Credit, Committee on Financial
Services, U.S. House of Representatives, January 18, 2012, www.occ.gov.
                                                                            45
                                                                              Office of the Comptroller of the Currency, “Volcker Rule Conformance
43
  Office of the Comptroller of the Currency, “The OCC Issues Volcker        Period Clarified,” news release 2012-64, April 19, 2012, www.occ.gov.
Rule Proposal for Public Comment,” news release 2011-126, October 11,
2011, www.occ.gov.                                                           Statement of Thomas J. Curry, Committee on Banking, Housing, and
                                                                            46

                                                                            Urban Affairs, U.S. Senate, June 6, 2012, www.occ.gov.
44
  Office of the Comptroller of the Currency, “Agencies Extend Comment
Period on Volcker Rule Proposal,” news release 2011-155, December 23,        Testimony of John Walsh, Committee on Banking, Housing, and Urban
                                                                            47

2011, www.occ.gov.                                                          Affairs, U.S. Senate, December 6, 2011, www.occ.gov.


22        Office of the Comptroller of the Currency     |   Annual Report Fiscal Year 2012
As part of this process, the OCC rescinded hundreds
of OTS documents that were outdated, were replaced,
or are being incorporated into OCC supervisory
publications.48

The OCC recognized from the beginning that these
changes would usher in a period of uncertainty for
federal savings associations now operating under
the OCC’s authority. To help those institutions
understand and adapt to changes in their regulation
and supervision, the agency held a number of outreach
meetings and teleconferences at which concerns were
aired and explanations provided by OCC supervisory                          Joyce Cofield, Executive Director of the OCC’s Office of Minority
staff.49                                                                    and Women Inclusion (right), speaks with an attendee during an
                                                                            outreach event for minority small-business contractors.

Office of Minority and Women Inclusion
In 2012, the OCC continued to rank near the top                             minority and female high school and college students
among the “Best Places to Work in the Federal                               for internship opportunities.
Government,” with especially strong scores from
                                                                            To promote opportunities for minority- and women-
employees for the OCC’s support for diversity.
                                                                            owned businesses, the OCC enhanced its outreach
Section 342 of Dodd–Frank reinforced the agency’s                           program by creating print publications and enabling
diversity objectives by requiring each of the federal                       electronic access to information about the OMWI
banking agencies to establish an Office of Minority                         program and how to conduct business with the agency.
and Women Inclusion (OMWI). The office’s mandate                            The OCC’s OMWI also increased its attendance at
is to develop standards for equal employment                                vendor forums throughout the country to engage in
opportunity and racial, ethnic, and gender diversity                        one-on-one discussions with and provide technical
among the workforce and senior management of                                assistance to minority- and women-owned businesses.
the agency; increase participation among minority-                          For FY 2011 and FY 2012, the OCC awarded
and women-owned businesses with which the                                   procurement actions representing 38 percent and 34
agency contracts; and assess the diversity policies                         percent, respectively, of its total spending to minority-
and practices of the financial institutions that they                       and women-owned businesses.
supervise and regulate.
                                                                            Perhaps the most challenging part of section 342
In March, the OCC OMWI documented its activities                            of Dodd–Frank is its mandate that OMWI develop
in a report to Congress. The office continued to focus                      standards for assessing the diversity policies and
its activities in 2012 on increasing the participation of                   practices of entities regulated by the OCC. The OCC
Hispanics in OCC major occupations and of women                             is working collaboratively with its counterparts
in the national bank examiner positions, two areas in                       at the other federal banking agencies to develop
which their workforce participation falls below the                         consistent and appropriate standards for the diversity
National Civilian Labor Force comparator for those                          assessments. The OMWI interagency group has
occupational groups. The OCC continued to support                           held a series of roundtable meetings with industry
                                                                            representatives and trade and consumer advocacy
                                                                            groups around the country to solicit input and gather
48
  Office of the Comptroller of the Currency, “Rescission of OTS             information on best approaches for implementing this
Documents,” bulletin 2012-2, January 6, 2012, www.occ.gov; bulletin         section of Dodd–Frank.50 The interagency group is
2012-15, May 17, 2012, www.occ.gov; bulletin 2012-23, August 24, 2012,
www.occ.gov.                                                                developing a notice for publication in the Federal
49
  See, for example, Office of the Comptroller of the Currency, “Office of
the Comptroller of the Currency Hosts Workshops in New Jersey,” news
release 2012-21, February 10, 2012, www.occ.gov. Twelve such workshops      50
                                                                              “Office of Minority and Women Inclusion, Section 342, 2011 Annual
were held in 2012.                                                          Report to Congress, March 2012,” www.occ.gov.


	                                                                                                     Section One: Year in Review                 23
Register to enable interested parties to provide
comments on the proposed standards.

A key related goal is to sustain a viable minority-
owned banking sector, which was hit especially
hard during the economic recession. The OCC has
long recognized the importance of minority-owned
banks, which often play a vital role in providing
financial services to underserved communities. To
help the agency understand the unique challenges
these institutions face, the OCC is in the process
of establishing an advisory committee on minority
banks, which will be made up of officers and directors
of those institutions and other financial institutions
committed to supporting them. Committee members
will offer insights to OCC supervisory personnel
on providing technical assistance, encouraging the
formation of new minority financial institutions,
and safeguarding the minority character of these
institutions during mergers or acquisitions.51                              Comptroller Curry speaks about the importance of small-business
                                                                            lending to economic growth and job creation.




51
  Office of the Comptroller of the Currency, “OCC Establishes Advisory
Committees on Minority Institutions and Mutual Associations,” news
release 2011-131, October 21, 2011, www.occ.gov.


24        Office of the Comptroller of the Currency     |   Annual Report Fiscal Year 2012
Section Two
Condition of the Federal Banking System

Summary                                                                       properties. Moreover, an estimated 20 percent of
                                                                              all first-lien mortgages exceed the current value of
Profitability at banks improved in the first half of
                                                                              the homes financed, with much higher shares in
calendar year 201252 but remains below its two-decade
                                                                              the hardest hit states, such as Arizona, Florida, and
average. With loan demand still weak, the substitution
                                                                              Nevada.
of lower-yielding securities for higher-yielding loans
continued to compress net interest margins. Expenses                          A number of factors may have delayed the usual
due to provisions for loan losses declined again                              foreclosure process. For example, while loan
from year-earlier levels and are below their long-                            modification programs may avert foreclosure in
run average as a percentage of loans. Credit quality                          some cases, in other cases mortgage loans proceed to
continued to improve, as net charge-off rates fell for                        foreclosure despite modification. As a result, some
all major loan categories.                                                    future foreclosures may simply be postponed rather
                                                                              than avoided. These forces make it unlikely that
Discussion
                                                                              loss rates will soon return to pre-crisis levels. For
For the first half of calendar year 2012, net income                          commercial real estate loans, charge-off rates have
at OCC-supervised banks increased by $6.6 billion                             begun to fall, but fundamental performance measures
compared with the first half of 2011. Quarterly net                           such as vacancy rates are still lagging.
income is running at about the same level as five
years ago. Profitability, as measured by return on                            OCC-supervised banks have set aside less in
equity, stood at 8.8 percent for the second quarter and                       reserves for future losses. Loan-loss provisions fell by
above the level of a year earlier. With system assets                         $7.3 billion in the first half of 2012 compared with a
$1 trillion higher than five years ago, and with banks                        year earlier and are below their long-run average as a
holding more capital, return on equity is still well                          share of total loans.
below the level achieved then.                                                Revenues. Pre-provision net revenues edged up
Credit quality and provisions. Credit quality has                             1 percent in the first half of 2012 compared with
improved steadily over the past three years. Charge-off                       the same period a year earlier. The weak economy
rates declined for all major loan categories in the first                     continues to pressure net interest margins, as loans
half of 2012 compared with a year earlier.                                    mature and are replaced by low-yielding cash and
                                                                              securities.
Despite the generally improved credit performance,
loss rates have remained high for residential real                            Relatively weak economic growth combined with
estate, due in part to the backlog of foreclosed                              deleveraging by consumers is constraining loan
                                                                              demand, suggesting that banks are unlikely to see a
                                                                              return to pre-crisis growth rates in consumer lending
                                                                              anytime soon. Lending grew 2 percent in the first
                                                                              half of 2012, compared with a year earlier. Corporate
52
  Only data for the first half of calendar year 2012 were available by
publication deadline. Note: Fair value adjustments had a material influence
on reported results.


                                                                              Section Two: Condition of the Federal Banking System    	
profits have recovered to pre-recession levels, but with              a year earlier, in part from increased loan sales. This
many firms accumulating cash, and even medium-size                    growth in noninterest income was more than enough
firms now able to access the bond markets, banks have                 to offset the increase in expenses and the weakness
experienced less growth in business lending than they                 in interest income, pushing net income growth into
did during previous recoveries.                                       positive territory.

Growing revenue has been more of a challenge for                      Funding. Business and retail deposits rose sharply
smaller banks than for larger banks because smaller                   during the financial crisis, as other investments
banks did not benefit as much from the sharp drop                     appeared less attractive and savers turned to banks
in interest rates in 2008, following the onset of the                 for safety. Businesses in particular have accounted
recession.                                                            for a significant surge in checkable deposits since
                                                                      2008. Large banks have been the main recipients of
Noninterest expenses rose sharply in the first half of                these deposit flows, which have helped hold down
2012; this increase, however, was driven by results at                their funding costs; this pattern continued in 2012.
one large bank and overstates changes in noninterest                  Although these deposits offer low-cost funding, they
expenses across banks generally. Noninterest income                   may be harder for banks to retain if returns increase on
grew modestly in the first half of 2012 compared with                 alternatives to bank deposits.




26      Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2012
Section Three
OCC Organization

Thomas J. Curry
Comptroller of the Currency
                                 Thomas J. Curry was     Before becoming Comptroller of the Currency, Mr.
                                 sworn in as the 30th    Curry was a Director of the FDIC from 2004 to 2012.
                                 Comptroller of the      Mr. Curry served five Massachusetts governors as the
                                 Currency on April       Commonwealth’s Commissioner of Banks from 1990
                                 9, 2012, replacing      to 1991 and again from 1995 to 2003. He entered
                                 John Walsh, who         state government in 1982 as an attorney with the
                                 had served as Acting    Massachusetts Office of the Secretary of State.
                                 Comptroller since
                                 August 15, 2010.        Mr. Curry was chairman of the Conference of State
                                                         Bank Supervisors from 2000 to 2001 and served two
                                  The Comptroller        terms on the State Liaison Committee of the Federal
                                  of the Currency is     Financial Institutions Examination Council, including
                                  the chief executive    a term as its chairman.
                                  of the OCC, which
                                  supervises national    He is a summa cum laude graduate of Manhattan
banks and federal savings associations and the federal   College, where he was elected to Phi Beta Kappa. He
branches and agencies of foreign banks in the United     received his law degree from the New England School
States. The Comptroller also is a director of the FDIC   of Law.
and NeighborWorks America.




	                                                                        Section Three: OCC Organization	    27
Executive Committee




Thomas J. Curry                    Paul M. Nash                        John C. Lyons Jr.               Michael L. Brosnan
Comptroller of the Currency        Senior Deputy Comptroller and       Senior Deputy Comptroller for   Senior Deputy Comptroller for
                                   Chief of Staff                      Bank Supervision Policy and     Large Bank Supervision
                                                                       Chief National Bank Examiner




Jennifer C. Kelly                  Julie L. Williams                   Mark Levonian                   Thomas R. Bloom
Senior Deputy Comptroller for      First Senior Deputy Comptroller     Senior Deputy Comptroller for   Senior Deputy Comptroller
Midsize and Community Bank         and Chief Counsel                   Economics                       for Management and Chief
Supervision                                                                                            Financial Officer




Chief of Staff                                                         Executive Director and Counsel at Verizon Wireless in
                                                                       Washington, D.C., from 2001 to 2009. Before joining
Paul M. Nash, Senior Deputy Comptroller and
                                                                       Verizon Wireless, Mr. Nash was a legislative assistant
Chief of Staff, oversees the external affairs and
                                                                       to Senator Tim Johnson (D-S.D.) from 1997 to 2001.
communication functions of the OCC, including
                                                                       He also worked for the Congressional Research
Congressional Liaison, Banking Relations, Press
                                                                       Service and practiced law in Washington, D.C., and
Relations, Internal Communications, Minority Affairs,
                                                                       New Orleans, La.
and Communications, and directs the daily operations
of the Comptroller’s support staff. Mr. Nash joined the                Mr. Nash received a bachelor of arts degree in
OCC in this role in May 2012.                                          international relations and history from the University
                                                                       of Pennsylvania and a law degree from Georgetown
Mr. Nash was the Deputy to the Chairman for External
                                                                       University.
Affairs at the FDIC from 2009 to 2012. He served as


28       Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2012
Chief National Bank Examiner’s Office                      Midsize and Community Bank Supervision
As Senior Deputy Comptroller for Bank Supervision          Senior Deputy Comptroller Jennifer C. Kelly oversees
Policy and Chief National Bank Examiner, John C.           the Midsize and Community Bank Supervision
Lyons Jr. oversees the development of supervisory          Department. The department is responsible for the
policies and examination procedures and tools in           supervision of midsize and community banks, focusing
the areas of bank information technology, capital,         on ensuring sound risk identification and management
commercial and retail credit risk, compliance, financial   processes and regulatory compliance.
markets, balance sheet and asset management, and
operational risk. The department includes the Office       Ms. Kelly joined the OCC in 1979 as an Assistant
of the Chief Accountant, which is responsible for          National Bank Examiner and received her commission
accounting policy guidance for national banks and          in 1983. She has a broad supervision background,
federal savings associations, and oversees the OCC’s       including extensive experience in problem bank
NRC.                                                       supervision and policy development. She earned a
                                                           bachelor of arts degree in economics from Mount
Mr. Lyons joined the OCC in 1977 as an Assistant           Holyoke College.
National Bank Examiner and has held a variety of
leadership and staff positions in bank supervision as      Chief Counsel’s Office
a field examiner, a credit team leader, and Examiner-      First Senior Deputy Comptroller and Chief Counsel
in-Charge of several banks. He earned a bachelor           Julie L. Williams supervises the OCC’s Law,
of science degree in business administration from          Licensing, and Community Affairs departments.
DePaul University and a master’s degree in business
administration from Loyola University Chicago.             The Law Department enforces compliance
                                                           with banking requirements and securities laws,
Large Bank Supervision                                     addresses protection and fair treatment of bank
The Department of Large Bank Supervision is headed         customers through enforcement of consumer laws
by Senior Deputy Comptroller Michael L. Brosnan.           and regulations, issues opinions on national bank
The department oversees the supervision of the largest     powers and activities, handles OCC litigation
and most complex national banks and federal savings        matters, provides legislative analysis and technical
associations as well as foreign-owned U.S. branches        advice, and develops regulations. The Licensing
and agencies.                                              Department charters national banks and federal
                                                           savings associations and issues decisions on regulated
Mr. Brosnan joined the OCC in 1983 and received his        institution structure and business changes. The
commission as a National Bank Examiner in 1986. His        Community Affairs Department supports national
previous OCC positions include Deputy Comptroller          banks and federal savings associations in their
for Large Bank Supervision, Examiner-in-Charge,            community development activities and the provision
Deputy Comptroller for Risk Evaluation, and Director       of financial services to underserved communities and
of Treasury and Market Risk. He also worked as a risk      consumers.
manager at MBNA and then Bank of America from
2004 to 2008. He holds a bachelor of arts degree and       Ms. Williams joined the OCC as Deputy Chief
a master’s degree in business administration from          Counsel in 1993 after years of experience in the
Lynchburg College.                                         private sector and at the OTS and its predecessor,
                                                           the Federal Home Loan Bank Board. She became
                                                           OCC Chief Counsel in 1994. Ms. Williams has a
                                                           bachelor of arts degree from Goddard College and
                                                           a law degree from the Antioch School of Law. She
                                                           announced her retirement from the OCC effective
                                                           December 31, 2012.




	                                                                          Section Three: OCC Organization      29
Economics                                                               Ombudsman
The Economics Department is directed by Senior                                            The Office of the Ombudsman
Deputy Comptroller Mark Levonian. The department                                          administers the national bank appeals
provides economic analysis of national and global                                         program, the OCC’s Customer
economic trends, provides on-site and off-site                                            Assistance Group, and the Enterprise
examination support for bank supervision, contributes                                     Governance unit. The office, headed
to policy development, and conducts original research                                     by Larry L. Hattix, reports directly to
to support the OCC’s mission.                                                             the Comptroller of the Currency.
                                                                        Larry L. Hattix
Mr. Levonian held a succession of positions in the                                        Mr. Hattix joined the OCC as an
Federal Reserve System before joining the OCC                           Assistant National Bank Examiner in 1988 after
in 2004 as Deputy Comptroller for Modeling and                          graduating with a bachelor’s degree in business
Analysis. He holds a bachelor’s degree in economics                     administration and finance from Carroll College. He
from the University of California at Berkeley and a                     received his commission as a National Bank Examiner
Ph.D. in economics from the Massachusetts Institute                     in 1994, with a specialization in consumer and CRA
of Technology.                                                          compliance.

Office of Management                                                    Office of Minority and Women Inclusion
The Office of Management is led by Thomas                                                  OMWI, headed by Executive
R. Bloom, the Senior Deputy Comptroller for                                                Director Joyce Cofield, is responsible
Management and Chief Financial Officer. The office                                         for developing standards for equal
administers the OCC’s human resources, asset                                               employment opportunity and the
acquisition, travel and staff relocation, physical space,                                  racial, ethnic, and gender diversity
training and development, physical and personnel                                           of the OCC’s workforce and
security, compensation and benefits, and financial                                         senior management; increasing
management. It also provides the OCC’s information                      Joyce Cofield      the participation of minority- and
technology services.                                                                       women-owned businesses in the
                                                                        OCC’s programs and contracts; and assessing the
Mr. Bloom’s extensive government career has                             diversity policies and practices of the OCC’s regulated
included positions in the U.S. Departments of Defense,                  entities. The office reports directly to the Comptroller
Commerce, and Education and the General Services                        of the Currency.
Administration. He came to the OCC in his current
position in 2003. Mr. Bloom has a bachelor’s degree                     Before joining the OCC in 2001 as Director of
in business administration from the University of                       Employment and Diversity Management, Ms. Cofield
Michigan and is a certified public accountant.                          held a number of leadership roles at the Polaroid
                                                                        Corporation. She holds a bachelor of science degree in
                                                                        biology from Virginia Union University and a master’s
                                                                        degree in industrial microbiology from Boston
                                                                        University.




30      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Section Four
Licensing and Enforcement Measures

Figure 1: Corporate Application Activity, FY 2011 and FY 2012


                                                     FY 2011a           FY 2012                                 FY 2012 decisions

                                                                                                            Conditionally
                                                      Applications received               Approved                               Denied           Totalb
                                                                                                             approved
    Branches                                                  917                844                 860                    2             0            862
    Capital/sub-debt                                          224                174                 142                    2             0            145
    Change in bank control                                      4                  10                  1                    2             0                 6
    Charters                                                    6                   2                  1                    1             0                 2
    Conversions     c
                                                                8                   5                  2                    6             0                 8
    Federal branches                                            2                   5                  0                    2             0                 2
    Fiduciary powers                                            9                  16                  3                    2             0                 5
    Mergers   d
                                                               70                 98                  86                    6             0                94
    Relocations                                               187                197                 191                    1             0            192
    Reorganizations (national banks
                                                               71                  53                 43                    6             0                49
    only)
    Stock appraisals                                            0                   0                  0                    0             0                 0
    Subsidiaries                                              107                148                 112                    2             0            115
    12 CFR 5.53 change in assets                                2                  26                 22                    5             0                27
    Limited national bank upgrade                               1                   0                  0                    0             0                 0
    Operations                                                 31                  35                 25                    0             0                25
    Sasser/conversions oute                                     9                 38                  41                    0             0                41
    Bylaw/charter (federal savings
                                                                8                 73                  66                    0             0                66
    associations only)
    Total                                                    1,656            1,724                1,595                  37              0          1,639

Source: OCC data.
a
    Data collected for federal savings associations are for the fourth quarter of FY 2011 only.
b
    Total includes alternative decisions or no-objections.
c
    Conversions to national bank charters.
d
    Mergers include failure transactions when a national bank is the resulting institution.
e
    Conversions to federal savings association charters and mutual-to-stock conversions.




	                                                                                             Section Four: Licensing and Enforcement Measures	             31
Figure 2: Licensing Actions and Timeliness, FY 2011 and FY 2012

                                                                                        FY 2011                                        FY 2012
                                                                                           Within target                                   Within target
                                                 Target time
                                                                   Number of                                          Number of
                                                  frames in                             Number         Percent                         Number         Percent
                                                                   decisions                                          decisions
                                                    daysa
    Branches                                             45/60               870               857              99             862            858           100
    Capital/sub-debt                                     30/45               185               176              95             145            142            98
    Change in bank control                               NA/60                    3               2             67                 6             5           83
    Charters   b
                                                                                  8               7             88                 2             2          100
    Conversions                                          30/90                    3               2             67                 8             6           75
    Federal branches                                    NA/120                    1               1           100                  2             2          100
    Fiduciary powers                                     30/45                    2               2           100                  5             4           80
    Mergers                                              45/60                 51               49              96               94            91            97
    Relocations                                          45/60               170               165              97             192            188            98
    Reorganizations                                      45/60                 64               58              91               49            42            86
    Stock appraisals                                     NA/90                    0               0              0                 0             0               0
    Subsidiaries                                             NA                24               21              88             115            113            98
    12 CFR 5.53 change in assets                         NA/60                    1               1           100                27            26            96
    Limited national bank upgrade                                                 0               0              0                 0             0               0
    Operations                                           30/60                                                                   25            25           100
    Sasser/conversions out                               30/60                                                                   41            41           100
    Bylaw/charter                                        30/60                                                                   66             66          100
    Total                                                                  1,382              1,341             97           1,639          1,611                98

Source: OCC data.

Note: Most decisions (97 percent in 2011 and 93 percent in 2012) were decided in the district offices and Large Bank Licensing under delegated authority.
Decisions include approvals, conditional approvals, and denials. NA means not applicable.
a
 The data are for national banks and federal savings associations combined. Those filings that qualified for the “expedited review” process are subject to the
shorter time frames listed. The longer time frames are the standard benchmarks for more complex applications. The target time frame may be extended if the
OCC needs additional information to reach a decision, permits additional time for public comment, or processes a group of related filings as one transaction.
b
 For independent national bank charter applications, the target time frame is 120 days. For holding-company-sponsored applications, the target time frame is
45 days for applications eligible for expedited review and 90 days for all others.




Figure 3: OCC Changes in Bank Control Act Actions, FY 2008–FY 2012
(Notices Processed With Disposition)a


              Year                   Received                 Acted on                Not disapproved           Disapproved                 Withdrawn
              2012                                 10                         6                         6                          0                             0
              2011                                  4                         6                         6                          0                             0
              2010                                  8                         5                         5                          0                             0
              2009                                 10                       10                          7                          0                             3
              2008                                  5                         4                         4                          0                             0

Source: OCC data.
a
    FY 2011 and 2012 data are for national banks and federal savings associations combined.




32            Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2012
Figure 4: OCC Enforcement Actions, FY 2012

                                                                                                        Against institution-
                            Type of enforcement action                        Against institutions       affiliated parties
    Cease-and-desist orders                                                                       57                           9
    Temporary cease-and-desist orders                                                              0                           0
    12 USC 1818 civil money penalties                                                              2                      38
    12 USC 1818 civil money penalties amount assessed                          $       55,000,000        $          220,250
    Flood insurance civil money penalties                                                          8                           0
    Flood insurance civil money penalties amount assessed                      $            111,775      $                     0
    Restitution orders                                                                             4                           2
    Amount of restitution ordered                                              $      164,518,013        $           37,000
    Formal agreements                                                                             57                           0
    Capital directives                                                                             0                      NA
    Prompt corrective action directives                                                            8                      NA
    Individual minimum capital ratio letters                                                      46                      NA
    Safety and soundness orders                                                                    0                      NA
    Memorandums of understanding                                                                  29                           0
    Commitment letters                                                                             2                      NA
    Suspension orders                                                                            NA                            1
    12 USC 1818 removal/prohibition orders                                                       NA                       19
    12 USC 1829 prohibitions                                                                     NA                      103
    Letters of reprimand                                                                         NA                       10
    Total                                                                                       213                      182

Note: NA means not applicable.




Figure 5: List of Applications Presenting Community Reinvestment Act Issues Decided, FY 2012

                                 Bank, city, state                     Approval date               Document number
    Raymond James Bank, FSB, St. Petersburg, Fla. (conversion)             January 2012       Conditional Approval No. 1022
    Capital One, NA, and Capital One Bank (USA), NA, McLean, Va.             March 2012                CRA Decision No. 149
    (purchase and assumption)
    First Niagara Bank, NA, Buffalo, N.Y.                                      April 2012     Conditional Approval No. 1031
    (purchase and assumption)
    TD Bank, NA, Wilmington, Del.                                           August 2012                CRA Decision No. 150
    (branch establishment)




	                                                                  Section Four: Licensing and Enforcement Measures            33
34	   Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2012
Section Five
Financial Management
Discussion and Analysis

Letter From the Chief Financial Officer                      savings associations. The
                                                             revenue from these fees
I am pleased to present the OCC’s financial statements
                                                             is used to fund the OCC’s
as an integral part of the Fiscal Year 2012 Annual
                                                             operations. In addition to
Report. For FY 2012, our independent auditors have
                                                             assessment revenue, the
again rendered an unqualified opinion with no material
                                                             OCC receives interest
internal control weaknesses. The financial statements
                                                             income on its long-
include the assets and liabilities transferred to the OCC
                                                             term investments and
from the OTS on July 21, 2011, as required by Dodd–
                                                             rental income from the
Frank, and are presented in accordance with generally
                                                             occupancy agreement in
accepted accounting principles (GAAP).
                                                             place with the CFPB.
In FY 2012, the OCC provided unqualified assurance
                                                             The OCC has long
that its internal controls over financial reporting
                                                             recognized the importance Thomas R. Bloom, Senior Deputy
operate effectively and have no material weaknesses                                       Comptroller for Management and
                                                             of spending only what is Chief Financial Officer
in their design or operation. The OCC continuously
                                                             necessary to accomplish
strives for strong internal controls by implementing
                                                             its mission. Personnel, contractual services, and
the guidance found in the Office of Management and
                                                             rent are the OCC’s three leading costs, representing
Budget’s (OMB) Circular A-123, “Management’s
                                                             76 percent of its total annual operating budget.
Responsibility for Internal Control, Appendix A—
                                                             In FY 2012, the OCC incurred a one-time cost of
Internal Control Over Financial Reporting.”
                                                             $86.2 million to fully fund the defined benefit pension
The determination, made by the OCC and required by           plan assumed from the OTS. This pension plan,
OMB, was based on the OCC Financial Management               which has not been open to new entrants since 1989,
Department’s detailed, annual risk assessment of the         covers 230 current OCC employees and 551 retirees.
financial statements and rigorous tests of controls. The     Dodd–Frank requires that the OCC maintain this plan
OCC highly values such an evaluation, as it attests          and be responsible for the ongoing obligation to fund
to the agency’s strong internal control environment,         it. After absorbing this and other costs related to the
which has never been more important to the federal           OTS integration, the OCC’s overall financial condition
government. In fact, the majority of the findings noted      remains sound.
in the “Independent Auditor’s Report on Internal
                                                             At the end of each fiscal year, unused budgetary funds
Control Over Financial Reporting” were self-identified
                                                             are put into financial reserves. These financial reserves
by our internal controls staff, and plans of corrective
                                                             have allowed the OCC to maintain its bank assessment
action already have been implemented for all of
                                                             rate structure and, except for annual inflation
the findings.
                                                             adjustments, avoid assessment fee increases since
As a nonappropriated federal agency, the OCC                 2002. In FY 2012, the asset replacement reserve was
receives the majority of its funding by collecting           utilized to facilitate the consolidation of several office
assessment fees from national banks and federal              locations in Washington, D.C., into one headquarters

	                                                      Section Five: Financial Management Discussion and Analysis	    35
building. Leasehold improvements and relocation costs                 savings. All OM executives have received formal LSS
are two of the largest costs involved in this project,                training, and the OCC has 60 staff members who are
which is to be completed in February 2013.                            certified as Master Black Belts, Black Belts, or Green
                                                                      Belts and 33 employees who are actively pursuing
In addition to spending only what is necessary to                     their certifications.
accomplish its mission, the OCC focuses on reducing
costs wherever feasible. To that end, the Office of                   With the successful integration of the OTS realized,
Management (OM) operates a Lean Six Sigma (LSS)                       the OCC continues to focus on its core mission:
program to ensure that administrative processes                       to supervise, regulate, and charter national banks
are continually reviewed and improved. The LSS                        and federal savings associations. The OCC’s strong
program is based on a managerial concept that aims                    internal controls environment, solid financial
to eliminate seven kinds of waste, referred to as                     resources, and process improvement programs ensure
Defects, Overproduction, Transportation, Waiting,                     successful operations in FY 2013 and beyond.
Inventory, Motion, and Over-Processing. The program
has produced significant cost savings. Since the
program’s implementation in 2005, 199 LSS projects
have been completed with total first-year cost savings
or avoidance of $33.6 million. This fiscal year alone,                                                     Thomas R. Bloom
the OCC completed 49 business process improvement                                  Senior Deputy Comptroller for Management
or LSS projects resulting in $1.3 million in total cost                                           and Chief Financial Officer




36      Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2012
Financial Summary                                           belong to the agency, to fund operations. Non-entity
                                                            assets are assets that the OCC holds on behalf of
The OCC received an unqualified opinion on its              another federal agency. The OCC’s non-entity assets
FY 2012 and FY 2011 financial statements. The               presented as accounts receivable are CMPs due
OCC’s financial statements consist of Balance Sheets,       the federal government through court-enforced
Statements of Net Cost, Statements of Changes in            legal actions.
Net Position, and Statements of Budgetary Resources.
The OCC presents the financial statements and               As of September 30, 2012, total assets were
notes on a comparative basis, providing financial           $1,519.5 million, a decrease of $7.1 million, or
information for FY 2012 and FY 2011. The financial          0.5 percent, from the total assets of $1,526.6 million
statements were prepared from the OCC’s accounting          reported on September 30, 2011. Factors contributing
records in conformity with GAAP. The financial              to the net reduction in total assets include a decrease
statements include the assets and liabilities that were     of $228.2 million in the fund balance with Treasury
transferred to the OCC from the OTS on July 21,             (FBWT) used for OCC FY 2012 operating expenses
2011, the transfer date, as required by Dodd–Frank.         and increases in investments and related interest of
The financial statements, followed by notes and the         $191.8 million and in property and equipment of
auditor’s opinion, begin on page 42.                        $31.0 million. The increase in property and equipment
                                                            resulted primarily from the addition of assets related
The following sections of the report address the OCC’s      to the leasehold improvement project and equipment
financial activities in FY 2012 and FY 2011.                purchases for the OCC’s new headquarters building.
Assets                                                      Figure 6 shows the OCC’s composition of assets for
The OCC’s assets include both “entity” and “non-            FY 2012 and FY 2011.
entity” assets. The OCC uses entity assets, which

Figure 6: Composition of Assets (in Millions)




Source: OCC financial system data.




	                                                     Section Five: Financial Management Discussion and Analysis   37
Investments                                                               The OCC calculates annual portfolio yield by dividing
                                                                          the total interest earned during the year by the average
Investments and related interest on September 30,
                                                                          ending monthly book value of investments.
2012, were $1,380.0 million, compared with
$1,188.2 million a year earlier. The market value of the                  Liabilities
OCC’s investment portfolio in excess of book value
rose this year to $40.3 million from $38.9 million on                     The OCC’s liabilities represent the resources due to
September 30, 2011. The OCC invests available funds                       others or held for future recognition and are composed
in non-marketable U.S. Treasury securities issued                         largely of deferred revenue, accrued liabilities, and
through the Treasury Department’s Bureau of Public                        accounts payable. Deferred revenue represents the
Debt in accordance with the provisions of                                 unearned portion of semiannual assessments that have
12 USC 481 and 12 USC 192. The OCC manages risk                           been collected but not earned.
by diversifying its portfolio across maturities within                    As of September 30, 2012, total liabilities were
established parameters. Diversifying maturities of                        $446.0 million, a net increase of $15.2 million, or
the individual securities is meant to help manage the                     3.5 percent, over total liabilities of $430.8 million on
inherent risk of interest-rate fluctuations.                              September 30, 2011. The increase of $5.8 million, or
The OCC’s investment portfolio is composed of                             2.5 percent, in deferred revenue was a result of greater
overnight and longer-term securities. The portion                         assessment collections during FY 2012, the majority
of the portfolio comprising longer-term (core)                            of which are attributable to assessments collected from
investments as of September 30, 2012, and                                 federal savings associations that the OCC supervises.
September 30, 2011, was $846.5 million, or                                The majority of the increase of $11.1 million, or
62.3 percent, and $645.4 million, or 55.1 percent,                        8.3 percent, in accounts payable and accrued liabilities
respectively. Because of the increase in core                             was primarily the result of additional accruals related
investments, the weighted average maturity of the                         to the leasehold improvement project for the OCC’s
portfolio rose to 2.5 years as of September 30, 2012,                     new headquarters building.
compared with 1.6 years as of September 30, 2011.                         Figure 7 illustrates the OCC’s composition of
The portfolio earned an annual yield for FY 2012 of                       liabilities for FY 2012 and FY 2011.
1.9 percent, compared with 2.3 percent in FY 2011.


Figure 7: Composition of Liabilities (in Millions)




Source: OCC financial system data.




38        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Net Position                                                  Reserves
The OCC’s net position of $1,073.5 million as of              The establishment of financial reserves is integral
September 30, 2012, and $1,095.8 million as of                to the effective stewardship of the OCC’s resources,
September 30, 2011, represents the cumulative                 particularly because the agency does not receive
net excess of the OCC’s revenues over the cost of             congressional appropriations. The contingency
operations. The net position is presented on both the         reserve is available to reduce the impact on the OCC’s
Balance Sheets and the Statements of Changes in               operations of significant revenue fluctuations, of
Net Position.                                                 unanticipated expenses resulting from foreseeable
                                                              but rare events beyond the OCC’s control, or of new
The OCC reserves a significant portion of the net             requirements and opportunities. Examples of such
position to supplement resources made available               events might include a major change in the federal
to fund the OCC’s annual budget and to cover                  banking system, a natural disaster that affects one of
foreseeable but rare events or new requirements and           the OCC’s facilities, or significant impairment of the
opportunities. The OCC also sets aside funds for              agency’s physical infrastructure that interferes with the
ongoing operations to cover undelivered orders,               OCC’s ability to accomplish its mission.
the consumption of assets, and capital investments.
                                                              These reserves also allow the OCC to fund special
Figure 8 shows the OCC’s composition of net position          onetime needs, such as the funding of the Pentegra
for FY 2012 and FY 2011.                                      Defined Benefit Plan liability assumed from the OTS


Figure 8: Composition of Net Position (in Millions)




Source: OCC financial system data.




	                                                       Section Five: Financial Management Discussion and Analysis   39
in FY 2011 and those that arose from the regulatory                       FY 2011 revenues of $843.2 million. The majority of
restructuring required by Dodd–Frank.                                     the increase, which was only slightly offset by minor
                                                                          decreases in other revenues, can be attributed to the
The asset replacement reserve is for the replacement                      assessments received from federal savings associations
of information technology investments, leasehold                          that were not under OCC supervision as of June 30,
improvements, and furniture replacement for future                        2011. Total assets under OCC supervision rose, as of
years. In FY 2012, the asset replacement reserve was                      June 30, 2012, to $10.0 trillion, up 13.6 percent from
used to pay for leasehold improvements and relocation                     $8.8 trillion a year earlier. Correspondingly, the costs
costs as part of the OCC’s efforts to consolidate                         of supervising national banks and federal savings
several office locations in Washington, D.C., into                        associations have risen because of the increasing size
one headquarters building.                                                and complexity of their assets. Of this total,
                                                                          $8.0 trillion, or 79.9 percent, is attributable to large
Revenues
                                                                          national banks. Midsize and community banks’ share
The OCC’s operations are funded primarily by                              is $931.0 billion, or 9.3 percent, followed by federal
assessments collected from national banks and                             branches at $280.0 billion, or 2.8 percent. Finally, the
federal savings associations, from interest received on                   federal savings association assets totaled
investments in U.S. Treasury securities, and from the                     $803.1 billion, or 8.0 percent, as of June 30, 2012.
rent that the CFPB pays the OCC for leasing office
space. The OCC, in accordance with 12 USC 482,                            Interest revenue totaled $19.7 million in FY 2012,
establishes budget authority for a given fiscal year.                     an increase of $0.3 million, or 1.5 percent, over
The total budget authority available for use by                           interest revenue of $19.4 million reported in FY 2011.
the OCC in FY 2012 was $1,226.1 million, which                            Other income is composed of revenue received from
represents an increase of $349.6 million, or                              reimbursable activities with federal entities and the
39.9 percent, over the $876.5 million budget in                           rental revenue the OCC receives from the CFPB,
FY 2011. The FY 2012 budget increase reflects a full                      which totaled $3.5 million in FY 2012 (see Note 6).
year of operating costs as a combined entity, which
                                                                          Figure 9 depicts the components of total revenue for
includes the staff that transferred from the OTS.
                                                                          FY 2012 and FY 2011.
Total FY 2012 revenue of $999.7 million reflects a
$156.5 million, or 18.6 percent, increase over


Figure 9: Components of Total Revenue (in Millions)

                                                              FY 2012              FY 2011              Change ($)         Change (%)
 Assessments                                              $          963.6     $           814.6    $          149.0             18.3%
 Interest and other income                                            36.1                   28.6                    7.5         26.2%
 Total revenue                                            $          999.7     $           843.2    $          156.5             18.6%
Source: OCC financial system data.




40        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Cost of Operations                                            the cost of the Federal Employees Retirement
                                                              System (FERS) and Civil Service Retirement System
The OCC’s net cost of operations is reported on the
                                                              (CSRS) retirement plans and the Federal Employees
Statements of Net Cost and the Statements of Changes
                                                              Health Benefits (FEHB) and Federal Employees’
in Net Position. The OCC uses an activity-based time
                                                              Group Life Insurance (FEGLI) plans, totaling
reporting system to allocate costs among the agency’s
                                                              $32.3 million in FY 2012 and $33.7 million in
programs. Costs are further divided into those
                                                              FY 2011. Total program costs for FY 2012 of
resulting from transactions between the OCC and other
                                                              $1,049.6 million reflect an increase of $211.9 million,
federal entities (intragovernmental) and those between
                                                              or 25.3 percent, from $837.7 million in FY 2011. The
the OCC and nonfederal entities (with the public).
                                                              change was due primarily to increased staffing directly
The Statements of Net Cost present the full cost of
                                                              related to OTS employees transferred to the OCC.
operating the OCC’s three major programs—supervise,
                                                              Additional contributing factors included increases to
regulate, and charter national banks and federal
                                                              contractual services for systems maintenance and rent.
savings associations. For FY 2011, the costs associated
with operating these programs for federal savings             Budgetary Resources
associations are included beginning July 21, 2011.
                                                              The Statements of Budgetary Resources, found on
Figure 10 illustrates the breakdown of costs of               page 45, provide information about how budgetary
operations by major program for FY 2012 and                   resources were made available to the OCC for the year
FY 2011.                                                      and present the status of these resources and the net
                                                              outlay of budgetary resources at the end of the year.
The full cost presented in the Statements of Net Cost         The OCC executed $1,140.1 million, or 93.0 percent,
includes costs contributed by the Office of Personnel         of the FY 2012 budget of $1,226.1 million.
Management (OPM) on behalf of the OCC to cover


Figure 10: Costs of Operations by Major Program (in Millions)




Source: OCC financial system data.




	                                                       Section Five: Financial Management Discussion and Analysis   41
Financial Statements

                                 Office of the Comptroller of the Currency
                                               Balance Sheets
                                            As of September 30, 2012 and 2011
                                                                 (in Thousands)



                                                                                            2012                 2011


Assets                                                                                                             
     Intragovernmental:
       Fund balance with Treasury (Note 2)                                         $                 8,814   $          237,036
       Investments and related interest (Note 3)                                                 1,380,006            1,188,159
       Accounts receivable (Note 4)                                                                  2,035                3,931
       Other assets                                                                                   558                  316
     Total intragovernmental                                                                     1,391,413            1,429,442


     Accounts receivable, net (Note 4)                                                                471                  542
     Property and equipment, net (Note 5)                                                          127,568               96,617
     Other assets                                                                                      15                   24


Total assets                                                                       $             1,519,467   $        1,526,625


Liabilities
     Intragovernmental:
       Accounts payable and other accrued liabilities                              $                 7,913   $            3,300
     Total intragovernmental                                                                         7,913                3,300


     Accounts payable                                                                                3,571                8,056
     Accrued payroll and benefits                                                                   40,930               43,811
     Accrued annual leave                                                                           46,366               47,630
     Other accrued liabilities                                                                      45,271               30,249
     Deferred revenue                                                                              241,348              235,514
     Other actuarial liabilities (Note 8)                                                           60,611               62,272
     Total liabilities                                                                             446,010              430,832


     Net position (Note 9)                                                                       1,073,457            1,095,793


Total liabilities and net position                                                 $             1,519,467   $        1,526,625




                             The accompanying notes are an integral part of these financial statements.


42         Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
                                 Office of the Comptroller of the Currency
                                          Statements of Net Cost
                                For the Years Ended September 30, 2012 and 2011
                                                          (in Thousands)



                                                                                    2012                             2011

    Program costs                                                                                                          
        Supervise
           Intragovernmental                                                $              115,089          $                  103,977
           With the public                                                                 780,112                             611,387

        Subtotal – supervise                                                $              895,201          $                  715,364


        Regulate
           Intragovernmental                                                $               17,722          $                   16,003
           With the public                                                                 114,612                              91,977

        Subtotal – regulate                                                 $              132,334          $                  107,980


        Charter
           Intragovernmental                                                $                2,995          $                    2,212
           With the public                                                                  19,071                              12,148

        Subtotal – charter                                                  $               22,066          $                   14,360


    Total program costs                                                     $             1,049,601         $                  837,704
      Less: earned revenues not attributed to programs                                    (999,727)                           (843,203)

    Net program costs before gain/loss from
     changes in assumptions                                                 $               49,874          $                   (5,499)
      Actuarial (gain)/loss (Note 8)                                                         4,335                                (196)



    Net cost of operations (Note 10)                                        $               54,209          $                   (5,695)




                             The accompanying notes are an integral part of these financial statements.


	                                                            Section Five: Financial Management Discussion and Analysis              43
                                Office of the Comptroller of the Currency
                                 Statements of Changes in Net Position
                                For the Years Ended September 30, 2012 and 2011
                                                                (in Thousands)



                                                                                           2012                  2011


Beginning balances                                                                $          1,095,793       $          785,454



Budgetary financing sources:
     Transfer-in without reimbursement                                                                  0               259,222


Other financing sources:
     Transfer-in/out without reimbursement                                                           (434)               11,675

     Imputed financing (Note 11)                                                                   32,307                33,747



Net cost of operations                                                                            (54,209)                5,695



Net change                                                                                        (22,336)              310,339


Ending balances                                                                   $          1,073,457       $     1,095,793




                            The accompanying notes are an integral part of these financial statements.



44        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
                                 Office of the Comptroller of the Currency
                                   Statements of Budgetary Resources
                                For the Years Ended September 30, 2012 and 2011
                                                           (in Thousands)



                                                                                      2012                             2011

    Budgetary resources:
      Unobligated balance brought forward, October 1                        $            1,162,804          $                 847,259
      Adjustment to unobligated balance brought forward, October 1                               0                                  0
      Unobligated balance from prior year budget authority, net                          1,162,804                            847,259
      Balance transfers                                                                          0                            245,034
      Spending authority from offsetting collections                                     1,001,516                            895,505
    Total budgetary resources                                               $            2,164,320          $               1,987,798

    Status of budgetary resources:
      Obligations incurred                                                  $            1,077,171          $                 824,994
      Exempt from apportionment                                                          1,087,149                          1,162,804
      Unapportioned                                                                              0                                  0
      Total unobligated balance, end of year                                             1,087,149                          1,162,804
    Total budgetary resources                                               $            2,164,320          $               1,987,798

    Change in obligated balance:
      Unpaid obligation balance brought forward, October 1                  $              251,164          $                184,501
      Obligations incurred                                                               1,077,171                           824,993
      Outlay (gross)                                                                    (1,043,822)                         (797,892)
      Actual transfers, unpaid obligations (net)                                                  0                           39,562
      Unpaid obligation, end of year                                                       284,513                           251,164
      Uncollected payment, federal source brought forward, October 1                         (7,493)                           (3,579)
      Change in uncollected payment, federal source                                           1,515                            (3,914)
      Uncollected payment, federal source, end of year                                       (5,978)                           (7,493)

      Memorandum (non-add) entries
      Obligated balance, start of year                                      $              243,671          $                180,922
      Obligated balance, end of year                                        $              278,535          $                243,671

    Budget authority and outlays, net:
      Budget authority, gross                                               $            1,001,516          $                895,505
      Actual offsetting collections                                                     (1,003,031)                         (891,591)
      Change in uncollected payment from federal source                                      1,515                             (3,914)
      Budget authority, net                                                                        0                                0
      Outlay, gross                                                                      1,043,822                           797,892
      Actual offsetting collections                                                     (1,003,031)                         (891,591)
      Agency outlay, net                                                    $                40,791         $                (93,699)



                              The accompanying notes are an integral part of these financial statements.



	                                                             Section Five: Financial Management Discussion and Analysis	           45
Notes to the Financial Statements                                       Resources. The OCC chose early adoption for the
                                                                        formatting changes of the Statements of Budgetary
Note 1—Significant Accounting Policies
                                                                        Resources, which are required in FY 2013 by Circular
Reporting Entity                                                        No. A-136. The OCC presents its financial statements
                                                                        on a comparative basis, providing information for
The OCC was created as a bureau within the Treasury
                                                                        FY 2012 and FY 2011. The accompanying financial
Department by an act of Congress in 1863. The
                                                                        statements and notes present the operations of the
mission of the OCC was to establish and regulate
                                                                        OCC, which include the functions transferred from the
a system of federally chartered national banks.
                                                                        OTS in FY 2011.
The National Currency Act of 1863, rewritten
and reenacted as the National Bank Act of 1864,                         The financial statements reflect both the accrual and
authorized the OCC to supervise national banks and                      budgetary bases of accounting. Under the accrual
to regulate the lending and investment activities of                    basis of accounting, revenues are recognized when
federally chartered institutions. With the passage of                   earned, and expenses are recognized when a liability
Dodd–Frank on July 21, 2010, the OCC also oversees                      is incurred, without regard to cash receipt or payment.
federally chartered savings associations.                               The budgetary method recognizes the obligation of
                                                                        funds according to legal requirements, which in many
The financial statements report on the OCC’s three
                                                                        cases is recorded before the occurrence of an accrual-
major programs: supervise, regulate, and charter
                                                                        based transaction. Budgetary accounting is essential
national banks and federal savings associations.
                                                                        for compliance with legal constraints and controls over
The OCC’s major programs support the agency’s
                                                                        the use of federal funds.
overall mission by ensuring a safe and sound system
of national banks and federal savings associations;                     In accordance with GAAP, the preparation of financial
promoting equal access to financial services and fair                   statements requires management to make estimates
treatment of bank customers; maintaining a flexible                     and assumptions that affect the reported amounts
legal and regulatory framework that enables a strong,                   of assets and liabilities, the disclosure of contingent
competitive system of banks; and having a competent,                    assets and liabilities at the date of the financial
highly motivated, and diverse workforce.                                statements, and the reported amounts of revenue and
Basis of Accounting and Presentation                                    expense during the reporting period. Such estimates
                                                                        and assumptions could change in the future as more
The OCC’s financial statements are prepared from                        information becomes known, which could affect the
the agency’s accounting records in conformity                           amounts reported and disclosed herein.
with GAAP as set forth by the Federal Accounting
Standards Advisory Board (FASAB). The OCC’s                             Throughout these financial statements, assets,
financial statements are presented in accordance with                   liabilities, earned revenues, and costs have been
the form and content guidelines established by the                      classified according to the entity responsible for these
OMB in Circular No. A-136, “Financial Reporting                         transactions. Intragovernmental earned revenues are
Requirements.”                                                          collections or accruals of revenue from other federal
                                                                        entities, and intragovernmental costs are payments or
In addition, the OCC applies financial accounting and                   accruals of expenditures to other federal entities. The
reporting standards issued by the Financial Accounting                  Statements of Budgetary Resources for FY 2011 has
Standards Board (FASB) only as outlined in Statement                    been reclassified to make it comparable to the FY 2012
of Federal Financial Accounting Standards (SFFAS) 34,                   presentation.
“The Hierarchy of Generally Accepted Accounting
Principles,” including the “Application of Standards                    Revenues and Other Financing Sources
Issued by the Financial Accounting Standards Board.”                    The OCC derives its revenue primarily from
                                                                        assessments and fees paid by national banks and
The OCC’s financial statements consist of Balance
                                                                        federal savings associations, and from income
Sheets, Statements of Net Cost, Statements of
                                                                        on investments in non-marketable U.S. Treasury
Changes in Net Position, and Statements of Budgetary
                                                                        securities. The OCC does not receive congressional

46	     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
appropriations to fund any of the agency’s                       annually or as needed to reflect the most current
operations. Therefore, the OCC has no unexpended                 estimate of accounts that are likely to be uncollectible.
appropriations.                                                  Accounts receivable from the public are reduced by an
                                                                 allowance for loss on doubtful accounts (see Note 4).
By federal statute 12 USC 481, the OCC’s funds are
maintained in a U.S. government trust revolving fund.            Property and Equipment
The funds remain available to cover the annual costs             Property and equipment as well as internal-use
of the OCC’s operations in accordance with policies              software are accounted for in accordance with
established by the Comptroller of the Currency. As               SFFAS No. 6, “Accounting for Property, Plant, and
part of the OTS integration in FY 2011, a second fund            Equipment,” and SFFAS No. 10, “Accounting for
symbol was temporarily established. This fund symbol             Internal Use Software.”
was closed at the end of FY 2012.
                                                                 Property and equipment purchases and additions are
Earmarked Funds
                                                                 stated at cost. The OCC expenses purchases that do not
Earmarked funds are financed by specifically identified          meet the capitalization criteria, such as normal repairs
revenues, often supplemented by other financing                  and maintenance, when received or incurred.
sources, which remain available over time. These
specifically identified revenues and other financing             In addition, property and equipment are depreciated
sources are required by statute to be used for                   or amortized, as applicable, over the estimated useful
designated activities, benefits, or purposes, and must           lives using the straight-line method and are removed
be accounted for separately from the government’s                from the OCC’s asset accounts in the period of
general revenues. In accordance with FASAB SFFAS                 disposal, retirement, or removal from service. Any
No. 27, “Identifying and Reporting Earmarked Funds,”             difference between the book value of the property
all of the OCC’s revenue meets this criterion and                and equipment and amounts realized is recognized
constitutes an earmarked fund.                                   as a gain or loss in the same period that the asset is
                                                                 removed (see Note 5).
Fund Balance With Treasury
                                                                 Liabilities
The Treasury Department processes the OCC’s cash
receipts and disbursements. The OCC’s Statements of              The OCC records liabilities for amounts that are likely
Budgetary Resources reflect the status of the agency’s           to be paid as a result of events that have occurred as of
FBWT (see Note 2).                                               the relevant Balance Sheet dates. The OCC’s liabilities
                                                                 consist of routine operating accounts payable, accrued
Investments                                                      payroll and benefits, and deferred revenue. The OCC’s
It is the OCC’s policy to invest available funds in              liabilities represent the amounts owed or accrued
accordance with the provisions of 12 USC 481 and                 under contractual or other arrangements governing the
12 USC 192. The OCC invests available funds in                   transactions, including operating expenses incurred
non-marketable U.S. Treasury securities, which                   but not paid. The OCC accounts for liabilities in
may include overnight securities, bills, notes, and              accordance with SFFAS No. 5, “Accounting for
bonds. The OCC does not invest funds with state or               Liabilities of the Federal Government.”
national banks. The OCC has the positive intent and
                                                                 Accounts Payable
ability to hold all U.S. Treasury securities to maturity
in accordance with FASB Accounting Standards                     Payments are made in a timely manner in accordance
Codification (ASC) Topic 320, “Investments—Debt                  with the Prompt Payment Act. Interest penalties are
and Equity Securities” (see Note 3).                             paid when payments are late. Discounts are taken
                                                                 when cost effective and when the invoices are paid
Accounts Receivable
                                                                 within the discount period.
In accordance with SFFAS No. 1, “Accounting for
Selected Assets and Liabilities,” the OCC updates the
“allowance for loss on accounts receivable” account

	                                                          Section Five: Financial Management Discussion and Analysis	   47
Accrued Annual Leave                                                    and management oversight of the plan to ensure its
                                                                        sustainability for current and future retirees.
In accordance with SFFAS No. 5, annual leave is
accrued and funded by the OCC as it is earned, and                      Thrift Savings Plan and OCC 401(k) Plan
the accrual is reduced as leave is taken or paid. Each
year, the balance in the accrued annual leave account                   The OCC’s employees are eligible to participate in
is adjusted to reflect actual leave balances with current               the federal Thrift Savings Plan. OCC employees also
pay rates. Sick leave and other types of leave are                      can elect to contribute a portion of their base pay to
expensed as incurred.                                                   the OCC-sponsored 401(k) plan, subject to Internal
                                                                        Revenue Service regulations that apply to employee
Deferred Revenue                                                        contributions in both the federal Thrift Savings Plan
                                                                        and the OCC-sponsored 401(k) plan.
The OCC’s activities are primarily financed by
assessments on assets held by national banks, federal                   As required by law, for OTS employees transferred to
savings associations, and the federal branches of                       the OCC, the OCC continues to offer a separate 401(k)
foreign banks. These assessments are due March 31                       plan. The amount of each participant’s matching
and September 30 of each year, based on their asset                     contribution is based on the applicable retirement
balances as of December 31 and June 30, respectively.                   system under which each participant is covered.
Assessments are paid mid-cycle and are recognized as
earned revenue on a straight-line basis. The unearned                   Federal Employees Health Benefits and
portions of collected assessments are classified as                     Federal Employees’ Group Life Insurance
deferred revenue.
                                                                        Employees and retirees of the OCC are eligible to
Employment Benefits                                                     participate in the FEHB and FEGLI plans administered
                                                                        by OPM that involve a cost sharing of biweekly
Retirement Plans
                                                                        coverage premiums by employee and employer.
All of the OCC’s employees participate in                               The OCC does not fund post-retirement benefits
one of three retirement systems—the CSRS, FERS,                         for these programs. Instead, the OCC’s financial
or the Pentegra DB Plan. The CSRS and FERS are                          statements recognize an imputed financing source and
administered by OPM. Pursuant to the enactment of                       corresponding expense that represent the OCC’s share
Public Law 99-335, which established FERS, most                         of the cost to the federal government of providing
OCC employees hired after December 31, 1983, are                        these benefits to all eligible OCC employees.
automatically covered by FERS and Social Security.
                                                                        Post-Retirement Life Insurance Benefit Plan
Employees hired before January 1, 1984, are covered
by the CSRS, with the exception of those who, during                    The OCC sponsors a life insurance benefit plan for
the election period, joined FERS.                                       current and retired employees. On July 29, 2012,
                                                                        former OTS employees were converted to the OCC
The OCC does not report CSRS or FERS assets or
                                                                        life insurance benefit plan. This plan is a defined
accumulated plan benefits that may be applicable to
                                                                        benefit plan for which the benefit is earned over the
its employees in its financial statements; OPM reports
                                                                        period from the employee’s date of hire to the date on
them. Although the OCC reports no liability for future
                                                                        which the employee is assumed to retire. The valuation
payments to employees under these programs, the
                                                                        of the plan is conducted in accordance with generally
federal government is liable for future payments to
                                                                        accepted actuarial principles and practices, including
employees through the various agencies administering
                                                                        the applicable Actuarial Standards of Practice as issued
these programs.
                                                                        by the Actuarial Standards Board. Specifically, the
The OCC assumed the role of benefit administrator                       OCC uses the actuarial cost method as outlined in
for the Pentegra DB Plan in FY 2011. The Pentegra                       FASB ASC Topic 715, “Compensation—Retirement
DB Plan covers some of the transferred OTS                              Benefits,” to determine costs for its retirement
employees and is closed to new entrants. The OCC                        plans. Gains or losses owing to changes in actuarial
is committed to adhering to sound financial policies                    assumptions are amortized over the service life of the

48      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
plan. The actuarial assumptions and methods used                by the OCC. The second fund symbol is designated as
in calculating actuarial amounts comply with the                a revolving fund and was established to allow for the
requirements for post-retirement benefits other than            transfer of OTS funds to the OCC on July 21, 2011.
pensions as set forth in FASB ASC Topic 715 and for             All transferred funds have been expended, and as of
health benefit plans as set forth in American Institute         September 30, 2012, the revolving fund was closed.
of Certified Public Accountants Statement of
Position 92-6.                                                  The OCC’s FBWT consists of unobligated and
                                                                obligated balances that reflect the budgetary authority
In addition, for the one-year period following the              remaining for disbursement against current or future
transfer date (through July 21, 2012), the OCC                  obligations. The unobligated balance represents the
continued to administer a separate life insurance plan          cumulative amount of budgetary authority that has not
for those OTS employees transferred to the OCC who              been set aside to cover outstanding obligations and
met eligibility requirements (see Note 8).                      is classified as available for future OCC use without
                                                                further congressional action. The obligated balance not
Custodial Revenues and Collections
                                                                yet disbursed represents funds that have been obligated
Non-entity receivables, liabilities, and revenue are            for goods that have not been received or services that
recorded as custodial activity and include amounts              have not been performed. It also represents goods and
collected for fines, CMPs, and related interest                 services that have been delivered or received but for
assessments. Revenues are recognized as cash                    which payment has not been made. The nonbudgetary
collected that are transferred to the General Fund of           FBWT account represents adjustments to budgetary
the U.S. Treasury at the end of the fiscal year.                accounts that do not affect the FBWT. The OCC’s
                                                                balance represents investment accounts that reduce the
Note 2—Fund Balance With Treasury                               status of the FBWT.
The status of the FBWT represents the budgetary
                                                                As of September 30, 2012, there were no unreconciled
resources that support the FBWT and is a
                                                                differences between U.S. Treasury records and
reconciliation between budgetary and proprietary
                                                                balances reported on the OCC’s general ledger.
accounts. The OCC’s FBWT comprises two separate
U.S. Treasury fund symbols. The first is designated as          The figure below depicts the OCC’s FBWT amounts
a trust fund established by 12 USC 481 that governs             for FY 2012 and FY 2011.
the collection and use of assessments and other funds

Fund Balance With Treasury (in Thousands)
                                                                        FY 2012                            FY 2011
    Fund balance
    Trust fund                                                   $                  8,814          $                    10,623
    Revolving fund                                               $                       0         $                   226,413
    Total fund balance                                           $                  8,814          $                   237,036


    Status of fund balance with Treasury
    Unobligated balance—available                                $              1,087,149          $               1,162,804
    Obligated balance not yet disbursed                                           278,535                              243,671
    Non-budgetary fund balance with Treasury                                   (1,356,870)                        (1,169,439)
    Total                                                        $                  8,814          $                   237,036




	                                                         Section Five: Financial Management Discussion and Analysis             49
Note 3—Investments and Related Interest                                    $1,223.5 million on September 30, 2011. The overall
                                                                           portfolio earned an annual yield of 1.9 percent for
The OCC’s investments are stated at amortized
                                                                           FY 2012 and 2.3 percent for FY 2011.
cost and the related accrued interest. Premiums
and discounts are amortized over the term of the                           The yield-to-maturity on the non-overnight
investment using the effective interest method.                            portion of the OCC’s investment portfolio ranged
The fair market value of investment securities was                         from 0.2 percent to 4.5 percent in FY 2012 and from
$1,416.3 million on September 30, 2012, and                                0.9 percent to 4.5 percent in FY 2011.


FY 2012 Investments and Related Interest (in Thousands)
                                                                                      Amortized                               
                                                                  Amortization        (premium)        Investments,    Market value
                                                Cost                method             discount             net         disclosure
Intragovernmental securities:
     Non-marketable market-based           $    1,386,220       Effective interest    $     (10,158)   $   1,376,062   $   1,416,347
     Accrued interest                                  3,944                                      0           3,944            3,944
Total intragovernmental
investments                                $    1,390,164                             $     (10,158)   $   1,380,006   $   1,420,291


FY 2011 Investments and Related Interest (in Thousands) 
                                                                                      Amortized                               
                                                                  Amortization        (premium)        Investments,    Market value
                                                Cost                method             discount             net         disclosure
Intragovernmental securities:
     Non-marketable market-based           $    1,192,820       Effective interest    $      (8,224)   $   1,184,596   $   1,223,491
     Accrued interest                                  3,563                                      0           3,563            3,563
Total intragovernmental
investments                                $    1,196,383                             $      (8,224)   $   1,188,159   $   1,227,054




50         Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Note 4—Accounts Receivable                                 assessed against people, national banks, or federal
                                                           savings associations for violations of law, regulation,
As presented in the OCC’s Balance Sheets, accounts         and orders; unsafe or unsound practices; and breaches
receivable represent monies due from the public for        of fiduciary duty. Because CMPs are not debts due
services and goods provided that are retained by the       the OCC, the amount outstanding does not enter into
OCC upon collection. The amounts shown for federal         the calculation for the allowance for uncollectible
receivables represent pension sharing costs for OTS        accounts. The OCC has recognized $55.4 million
employees transferred to other federal agencies rather     and $41.6 million in CMP non-entity revenue as of
than to the OCC. Also included are CMP amounts             September 30, 2012, and 2011, respectively.

FY 2012 Accounts Receivable (in Thousands)                                                       
                                                                          Allowance for             Account receivable,
                                                 Gross                uncollectible accounts               net
    Federal receivables                   $               2,035        $                    0       $              2,035
    Civil money penalty receivables                         417                             0                        417
    Nonfederal receivables                                   79                          (25)                         54
    Total accounts receivable             $               2,531        $                 (25)       $              2,506


FY 2011 Accounts Receivable (in Thousands)                                                       
                                                                          Allowance for             Account receivable,
                                                 Gross                uncollectible accounts               net
    Federal receivables                   $               3,931        $                    0       $              3,931
    Civil money penalty receivables                         486                             0                        486
    Nonfederal receivables                                   81                          (25)                         56
    Total accounts receivable             $               4,498        $                 (25)       $              4,473




	                                                    Section Five: Financial Management Discussion and Analysis           51
Note 5—Property and Equipment, Net                                        depreciated or amortized, as applicable, on a straight-
                                                                          line basis over the estimated useful lives.
Property and equipment purchased at a cost greater
than or equal to the noted thresholds below with useful                   For FY 2012 and FY 2011, the OCC reported
lives of three years or more are capitalized at cost and                  $2.2 million and $1.9 million, respectively, of fully
depreciated or amortized, as applicable. Depreciation                     depreciated assets removed from service, which
is expensed on a straight-line basis over the estimated                   included a $0.4 million transfer of assets to the CFPB.
useful life of the asset with the exception of leasehold                  In FY 2012 and FY 2011, there were no gains or
improvements. Leasehold improvements are amortized                        losses on asset disposal. The figures below summarize
on a straight-line basis over the lesser of the terms of                  property and equipment balances as of September 30,
the related leases or the estimated useful lives. Land,                   2012, and 2011.
leasehold improvements in development, and internal-
use software in development are not depreciated.                          FY 2012 and FY 2011 assets include the land and a
Major alterations and renovations, including leasehold                    building owned by the OTS that were transferred to
and land improvements, are capitalized, while                             the OCC on July 21, 2011. The building is a rental-
maintenance and repair costs are charged to expenses                      income property that the OCC uses to supplement its
as incurred. All other property and equipment are                         operating budget (see Note 6).

FY 2012 Property and Equipment, Net (in Thousands)
                                                                                                             Accumulated
                                                  Capitalization         Useful life                         depreciation/        Net book
 Class of assets                                   threshold             (in years)            Cost          amortization           value
 Land                                                             NA               NA      $         7,101   $           0    $          7,101
 Building                                                          50              50               49,188         (32,865)          16,323
 Leasehold improvements                                            50             5-20          103,553            (58,049)          45,504
 Equipment                                                         50             3-10              40,775         (26,882)          13,893
 Internal-use software                                           500                5               80,546         (65,275)          15,271
 Internal-use software—development                               500               NA               18,627               0           18,627
 Leasehold improvements—development                                50              NA               10,849               0           10,849
 Total                                                                                     $    310,639      $   (183,071)    $     127,568
                                                                                                                                      
 FY 2011 Property and Equipment, Net (in Thousands)                                                                                   
                                                                                                             Accumulated
                                                  Capitalization         Useful life                         depreciation/        Net book
 Class of assets                                   threshold             (in years)            Cost          amortization           value
 Land                                                             NA               NA      $         7,101   $           0    $          7,101
 Building                                                          50              50               49,188         (31,812)          17,376
 Leasehold improvements                                            50             5-20              78,766         (48,536)          30,230
 Equipment                                                         50             3-10              30,918         (24,170)              6,748
 Internal-use software                                           500                5               69,025         (57,797)          11,228
 Internal-use software—development                               500               NA               19,990               0           19,990
 Leasehold improvements—development                                50              NA                3,944               0               3,944
 Total                                                                                     $    258,932      $   (162,315)    $      96,617

Note: NA means not applicable.




52        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Note 6—Rental Income                                         Note 7—Leases
In FY 2012, the OCC entered into a 20-year occupancy         The OCC leases equipment and office space for its
agreement with the CFPB for a portion of the former          Headquarters operations in Washington, D.C., and for
OTS headquarters building transferred to the OCC             district and field operations. During FY 2012, the OCC
in FY 2011. After the transfer date, the OCC also            entered into six new lease occupancy agreements that
assumed ownership from the OTS of its existing non-          ranged between 54 and 120 months. All of the OCC’s
cancellable operating leases for additional space in         leases are treated as operating leases. All annual lease
that building and began receiving rental income from         costs under the operating leases are included in the
building tenants. These leases expire at various dates       Statements of Net Cost.
through 2021, and some provide renewal options.
The leases provide for annual base rent and additional       The future minimum lease payments to be made
rents for building operating expenses. Some leases also      through FY 2018 and thereafter, not including
provide for fixed future increases in rents over the term    renewals, are shown below.
of the lease.
                                                             FY 2012 Future Lease Payments (in Thousands)
The future minimum rentals to be received through              Year                                           Amount
FY 2018 and thereafter, not including renewals, are            2013                                      $           68,431
shown below.                                                   2014                                                  54,039
                                                               2015                                                  49,694
FY 2012 Future Rental Income (in Thousands)
                                                               2016                                                  47,344
    Year                                  Amount
                                                               2017                                                  48,914
    2013                              $          12,058
                                                               2018 and beyond                                      378,267
    2014                                         12,313
                                                               Total                                     $          646,689
    2015                                         12,287
    2016                                         12,534
    2017                                         12,678      FY 2011 Future Lease Payments (in Thousands)
    2018 and beyond                             210,394        Year                                           Amount
    Total                             $         272,264        2012                                      $           45,569
                                                               2013                                                  59,915
FY 2011 Future Rental Income (in Thousands)                    2014                                                  48,826
    Year                                  Amount               2015                                                  45,078
    2012                              $           2,468        2016                                                  45,657
    2013                                            647        2017 and beyond                                      420,088
    2014                                            599        Total                                      $         665,133
    2015                                            374
    2016                                            305
    2017 and beyond                               1,141
    Total                             $           5,534




	                                                      Section Five: Financial Management Discussion and Analysis         53
Note 8—Other Actuarial Liabilities
The OCC’s other actuarial liabilities are reported
on the Balance Sheets and include the following
components.

Actuarial Liabilities Category (in Thousands)                                                                   
 Component                                                                           FY 2012                                  FY 2011
 Post-retirement life insurance benefits                                     $                    54,101               $                     47,732
 Federal Employees’ Compensation Act                                                                   5,825                                  5,513
 Pentegra Defined Benefit Plan                                                                          685                                   9,027
 Total actuarial liabilities                                                 $                    60,611               $                     62,272


Post-Retirement Life Insurance Benefits                                      Net periodic post-retirement benefit costs for life
                                                                             insurance provisions under the plans include the
The OCC sponsors a life insurance benefit plan for                           components shown on this page. The total benefit
current and retired employees. In addition, for one                          expenses are recognized as program costs in the
year after the transfer date (through July 21, 2012),                        Statements of Net Cost. Any gains or losses from
the OCC administered a separate life insurance                               changes in long-term assumptions used to measure
plan for former OTS employees who met eligibility                            liabilities for post-retirement life insurance benefits
requirements. Transferred OTS plan participants were                         are displayed separately on the Statements of Net Cost,
converted to the OCC-sponsored plan on July 29,                              as required.
2012. The weighted-average discount rate used in
determining the accumulated post-retirement benefit                          The following table presents a reconciliation of the
obligation was 4.25 percent and 4.75 percent for                             beginning and ending post-retirement life insurance
FY 2012 and FY 2011, respectively. Gains or losses                           liability and provides material components of the
owing to changes in actuarial assumptions are                                related expenses.
amortized over the service life of the plan.

Reconciliation of Beginning and Ending Post-Retirement Liability and the Related Expense (in Thousands)
 Change in actuarial and accrued benefits                                            FY 2012                               FY 2011
 Actuarial post-retirement liability beginning balance                           $          47,732                 $             45,472
 Actuarial expense
  Normal cost                                                                                  1,153                                 1,374
  Interest on the liability balance                                                            2,280                                 2,385
 Actuarial (gain)/loss
  From experience                                                                              (422)                                  495
  From assumption changes                                                                      4,757                                 (691)
 Prior service costs                                                                              0                                    80
      Total expense                                                                            7,768                                 3,643
 Less amounts paid                                                                          (1,399)                              (1,383)
 Actuarial post-retirement liability ending balance                              $          54,101                 $             47,732




54	        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Federal Employees’ Compensation Act                          from July 1, 2011, through June 30, 2012. Total
                                                             expenses recognized were $2.7 million during
The Federal Employees’ Compensation Act provides             FY 2012 and $9.0 million during FY 2011. For
income and medical cost protection to cover federal          actuarial purposes, the liability was fully funded at
civilian employees injured on the job, employees who         September 30, 2012, and is therefore not reflected
have incurred a work-related occupational disease, and       in the FY 2012 Balance Sheets. As of September 30,
beneficiaries of employees whose death is attributable       2011, the liability was underfunded by $86.2 million.
to a job-related injury or occupational disease. Claims      Total plan assets as of July 1, 2012, were
incurred for benefits for OCC employees covered              $562.1 million.
under the Federal Employees’ Compensation Act are
administered by the U.S. Department of Labor and             The following table presents a reconciliation of the
later billed to the OCC. The FY 2012 and                     beginning and ending Pentegra DB Plan liability and
FY 2011 present values of these estimated outflows are       provides material components of the related expenses.
calculated using a discount rate of 2.3 percent in the
first year and 3.1 percent in subsequent years, and          Reconciliation of Beginning and Ending Pentegra DB
3.5 percent in the first year and 4.0 percent in             Plan Liability and the Related Expense (in Thousands)

subsequent years, respectively.                                Change in actuarial and accrued
                                                               benefits                                          FY 2012
Pentegra Defined Benefit Plan                                  Actuarial liability beginning balance         $      534,637
                                                               Actuarial expense
In accordance with the provisions of Dodd–Frank,                Normal cost                                          18,406
in FY 2011 the OCC assumed the role of benefit
                                                                Interest on the liability balance                    11,186
administrator for a legacy retirement system—the
                                                               Actuarial (gain)/loss
Pentegra DB Plan. The Pentegra DB Plan is a defined
                                                                From experience                                     (15,846)
benefit plan that the OTS assumed from its predecessor
                                                                From assumption changes                             (41,390)
agency when the OTS was created in 1989.
The Pentegra DB Plan is a system in which all costs            Prior service costs                                         0

are paid by the employer into one general account.               Total expense                                      (27,644)
At retirement, employees may either receive a lump             Less amounts paid                                    (23,258)
sum payment or opt for an annuity/lump sum split.              Actuarial liability ending balance            $      483,735

As a result of Dodd–Frank, FY 2012 is the first full
year disclosed for the Pentegra DB Plan, which ran




	                                                      Section Five: Financial Management Discussion and Analysis              55
Note 9—Net Position                                                       OCC’s facilities and significant impairment of the
                                                                          agency’s physical infrastructure.
Net position represents the net result of operations
since inception and includes cumulative amounts                           The asset replacement reserve funds the replacement
related to investments in capitalized assets held by the                  of information technology investments, leasehold
OCC. The OCC sets aside a portion of its net position                     improvements, and furniture replacements for future
as contingency and asset replacement reserves for use                     years. The target level for the replacement reserve
at the Comptroller’s discretion. In addition, funds are                   is established annually based on the gross value of
set aside to cover the cost of ongoing operations.                        existing property and equipment plus a growth-rate
                                                                          factor and a margin for market cost adjustments.
The contingency reserve supports the OCC’s ability
to accomplish its mission by being available to reduce                    The figure below reflects balances for FY 2012 and
the impact on the OCC’s operations from significant                       FY 2011. In FY 2012, the asset replacement reserve
revenue fluctuations, such as those resulting from                        was used to consolidate several office locations in
a major change in the federal banking system. Also                        Washington, D.C., into one headquarters building. In
covered are unanticipated expenses resulting from                         addition, in FY 2012, the contingency reserve was
foreseeable but rare events beyond the OCC’s control,                     used for onetime costs associated with the
including a natural disaster that affects one of the                      OTS integration.

Net Position Availability (in Thousands)                                                                
Component                                                                    FY 2012                           FY 2011
Contingency reserve                                              $                          648,463        $              692,690
Asset replacement reserve                                                                   111,600                       192,900
Set aside for ongoing operations:
     Undelivered orders                                                                     122,505                        64,440
     Consumption of assets                                                                  147,334                       112,114
     Capital investments                                                                     43,555                        33,649
Net position                                                     $                         1,073,457       $             1,095,793



Note 10—Net Cost of Operations                                            SFFAS No. 33. The imputed financing sources for
                                                                          net cost of operations are reported on the Statements
The Net Cost of Operations represents the OCC’s                           of Changes in Net Position and in Note 12,
operating costs deducted from assessments and fees                        Reconciliation of Net Cost of Operations to Budget.
paid by national banks and federal saving associations
and other income earned. The operating costs include                      The following figure illustrates the OCC’s operating
the gain or loss from actuarial experience and                            expense categories for FY 2012 and FY 2011.
assumption changes per the guidance in

Net Cost of Operations by Expense Category (in Thousands)
                                                                             FY 2012                           FY 2011
Personnel compensation and benefits                              $                          741,516        $              546,739
Contractual services                                                                        124,823                       115,912
Rent, communication, and utilities                                                           61,513                        50,381
Travel and transportation of persons and things                                              55,082                        51,963
Imputed costs                                                                                32,307                        33,747
Depreciation                                                                                 22,554                        18,437
Other                                                                                        16,141                        20,329
Total                                                            $                         1,053,936       $              837,508

56        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Note 11—Imputed Costs and Financing                           Note 12—Reconciliation of Net Cost
Sources                                                       of Operations to Budget
In accordance with SFFAS No. 5, “Accounting for               The Reconciliation of Net Cost of Operations to
Liabilities of the Federal Government,” federal               Budget demonstrates the relationship between
agencies must recognize the portion of employees’             the OCC’s proprietary accounting (net cost of
pension and other retirement benefits to be paid              operations) and budgetary accounting (net obligations)
by OPM trust funds. These amounts are recorded                information. For FY 2012, the statement on the next
as imputed costs and imputed financing for other              page shows a total use of resources to finance activities
agencies. Annually, OPM provides federal agencies             of $108.0 million. This is a net decrease of
with cost factors for the computation of current year         $132.6 million from September 30, 2011, when there
imputed costs. These cost factors are multiplied by           were excess resources of $25.1 million. This net
the current year salary or number of employees, as            decrease resulted primarily from a $106.0 million
applicable, to provide an estimate of the imputed             increase in resources available (spending authority
financing that OPM trust funds will provide for               from offsetting collections) netted against the increase
each agency.                                                  of $252.2 million in resources used (obligations
                                                              incurred), and the $1.4 million decrease in imputed
The imputed costs categories for FY 2012 and                  financing. The majority of the increase in resources
FY 2011 are listed in the table below. These imputed          was used to fully fund the Pentegra DB Plan.
costs are included on the Statements of Net Cost. The
financing sources absorbed by the OPM are reflected
on the Statements of Changes in Net Position and in
Note 12, Reconciliation of Net Cost of Operations
to Budget.

Imputed Costs Absorbed by the OPM (in Thousands)
    Component                                                    FY 2012                               FY 2011
    Retirement                                      $                           14,889      $                        16,163
    Federal Employees Health Benefits                                           17,375                               17,545
    Federal Employees’ Group Life Insurance                                          43                                 39
    Total imputed costs covered by the OPM          $                           32,307       $                       33,747




	                                                       Section Five: Financial Management Discussion and Analysis       57
                            Office of the Comptroller of the Currency
                        Reconciliation of Net Cost of Operations to Budget
                                 For the Years Ended September 30, 2012 and 2011
                                                                 (in Thousands)


                                                                                                    2012                    2011

 Resources used to finance activities                                                                                
 Budgetary resources obligated
      Obligations incurred                                                                      $    1,077,171          $     824,994
      Less: Spending authority from offsetting collections                                          (1,001,516)              (895,505)
      Net obligations                                                                                   75,655                (70,511)
 Other resources
      Transfer-in (out) without reimbursement                                                              (433)               11,675
      Imputed financing sources (Note 11)                                                               32,307                 33,747
 Total resources used to finance activities                                                           107,529                 (25,089)


 Resources used to finance items not part of the net cost of operations                                                                

      Change in budgetary resources obligated for goods, services,                                     (24,170)                10,903
      and benefits ordered but not yet provided
      Resources that finance the acquisition of assets                                                 (53,937)               (25,821)
      Adjustment to net obligated balance that does not affect net cost of operations                       433               (11,675)

 Total resources used to finance items not part of the net cost of operations                          (77,674)               (26,593)
 Total resources used to finance the net cost of operations                                     $       29,855          $     (51,682)


 Components of the net cost of operations that will not require or generate
 resources in the current period
 Components requiring or generating resources in future periods
      Change in deferred revenue                                                                           5,834               41,071
      Increase in exchange revenue receivable from the public                                                 2                    9,478
      Total components that will require or generate resources in future periods                           5,836               50,549


 Components not requiring or generating resources
      Depreciation and amortization                                                                     22,554                 18,437
      Net increase (decrease) in bond premium                                                           (4,036)                    1,742
      Other                                                                                                   0               (24,741)
      Total components that will not require or generate resources                                      18,518                 (4,562)


 Total components of net cost of operations that will not require or generate
 resources in the current period                                                                        24,354                 45,987


 Net cost of operations                                                                         $       54,209          $      (5,695)




58	        Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Note 13—Commitments and Contingencies                        the risk of loss was reasonably possible. For three of
                                                             these, there was a reasonable possibility that the OCC
The OCC recognizes and discloses contingencies               could incur a loss of $1.5 million, which comprises
in accordance with SFFAS No. 12, “Recognition of             $600,000 in back pay and $900,000 in compensatory
Contingent Liabilities Arising From Litigation.” The         damages. For the fourth contingency, the OCC could
OCC is party to various administrative proceedings,          incur a loss of up to $675,000.
legal actions, and claims brought against the agency,
including threatened or pending litigation involving         As of September 30, 2011, the OCC reported
federal employment claims, some of which may                 $1.5 million for contingencies where the loss was
ultimately result in settlements or decisions against the    reasonably possible and $191,000 for a contingency
federal government.                                          where the risk of loss was probable.

As of September 30, 2012, there were four
contingencies for litigations involving the OCC where




	                                                      Section Five: Financial Management Discussion and Analysis   59
Independent Auditor’s Report




                                         Independent Auditor’s Report on Financial Statements

                        Inspector General, Department of the Treasury, and
                        the Comptroller of the Currency:

                        We have audited the accompanying balance sheets of the Office of the Comptroller of
                        the Currency (OCC) as of September 30, 2012 and 2011, and the related statements
                        of net cost, changes in net position and budgetary resources (hereinafter referred to
                        as “financial statements”) for the years then ended. These financial statements are
                        the responsibility of the management of OCC. Our responsibility is to express an
                        opinion on these financial statements based on our audits.

                        We conducted our audits in accordance with auditing standards generally accepted in
                        the United States of America; the standards applicable to financial audits contained
                        in Government Auditing Standards, issued by the Comptroller General of the United
                        States; and applicable provisions of Office of Management and Budget Bulletin
                        No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
                        Those standards require that we plan and perform the audits to obtain reasonable
                        assurance about whether the financial statements are free of material misstatement.
                        An audit includes examining, on a test basis, evidence supporting the amounts
                        and disclosures in the financial statements. An audit also includes assessing the
                        accounting principles used and significant estimates made by management, as well
                        as evaluating the overall financial statement presentation. We believe that our audits
                        provide a reasonable basis for our opinion.

                        In our opinion, the financial statements referred to above present fairly, in all material
                        respects, the financial position of the OCC as of September 30, 2012 and 2011, and
                        its net costs, changes in net position, and budgetary resources for the years then
                        ended in conformity with accounting principles generally accepted in the United
                        States of America.

                        U.S. generally accepted accounting principles require that the information in Section
                        Five, pages 35 through 41, and pages 69 and 70 be presented to supplement the
                        basic financial statements referred to in the first paragraph of this report. Such
                        information, although not a part of the basic financial statements, is required by the
                        Federal Accounting Standards Advisory Board who considers it to be an essential




60	   Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
    part of financial reporting for placing the basic financial statements in an appropriate operational,
    economic, or historical context.

    We have applied certain limited procedures to the required supplementary information in
    accordance with auditing standards generally accepted in the United States of America, which
    consisted of inquiries of management about the methods of preparing the information and
    comparing the information for consistency with management’s responses to our inquiries, the
    basic financial statements, and other knowledge we obtained during our audits of the basic
    financial statements. We do not express an opinion or provide any assurance on the information
    because the limited procedures do not provide us with sufficient evidence to express an opinion
    or provide any assurance.

    Our audits were conducted for the purpose of forming an opinion on the basic financial statements
    as a whole. The information in the Comptrollers Viewpoint, Sections One, Two, Three and Four
    of OCC’s fiscal year 2012 Annual Report is presented for the purposes of additional analysis and
    is not a required part of the basic financial statements. Such information has not been subjected
    to the auditing procedures applied in the audits of the basic financial statements, and accordingly,
    we do not express an opinion or provide any assurance on them.

    In accordance with Government Auditing Standards, we have also issued a report dated October
    31, 2012, on our consideration of the OCC’s internal control over financial reporting and a report
    dated October 31, 2012, on our tests of its compliance with laws, regulations, and contracts.
    These reports are an integral part of an audit performed in accordance with Government Auditing
    Standards, and should be read in conjunction with this report in considering the results of our
    audits.




    October 31, 2012




	                                            Section Five: Financial Management Discussion and Analysis	   61
                         Independent Auditor’s Report on Internal Control over Financial Reporting

                       Inspector General, Department of the Treasury, and
                       the Comptroller of the Currency:

                       We have audited the balance sheets and the related statements of net cost, changes in
                       net position, and budgetary resources, hereinafter referred to as “financial statements”
                       of the Office of the Comptroller of the Currency (OCC) as of and for the years ended
                       September 30, 2012 and 2011, and have issued our report thereon dated October
                       31, 2012. We conducted our audits in accordance with auditing standards generally
                       accepted in the United States of America; the standards applicable to financial audits
                       contained in Government Auditing Standards, issued by the Comptroller General of
                       the United States; and the applicable provisions of Office of Management and Budget
                       (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
                       as amended.

                       In planning and performing our fiscal year 2012 audit, we considered the OCC’s
                       internal control over financial reporting by obtaining an understanding of the design
                       effectiveness of OCC’s internal control, determined whether these internal controls
                       had been placed in operation, assessed control risk, and performed tests of controls
                       as a basis for designing our auditing procedures for the purpose of expressing our
                       opinion on the financial statements. We limited our internal control testing to those
                       controls necessary to achieve the objectives described in OMB Bulletin No. 07-04
                       and Government Auditing Standards. We did not test all internal controls relevant to
                       operating objectives as broadly defined by the Federal Managers’ Financial Integrity
                       Act of 1982, such as those controls relevant to ensuring efficient operations. The
                       objective of our audit was not to provide an opinion on the effectiveness of OCC’s
                       internal control over financial reporting. Consequently, we do not provide an opinion
                       on the effectiveness of OCC’s internal control over financial reporting.

                       Our consideration of internal control over financial reporting was for the limited
                       purpose described in the preceding paragraph and was not designed to identify all
                       deficiencies in internal control over financial reporting that might be deficiencies,
                       significant deficiencies, or material weaknesses. A deficiency in internal control
                       exists when the design or operation of a control does not allow management or
                       employees, in the normal course of performing their assigned functions, to prevent
                       or detect and correct misstatements on a timely basis.




62   Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
    A significant deficiency is a deficiency or combination of deficiencies, in internal control that is
    less severe than a material weakness, yet important enough to merit attention by those charged
    with governance.

    A material weakness is a deficiency, or a combination of deficiencies, in internal control, such that
    there is a reasonable possibility that a material misstatement of the entity’s financial statements
    will not be prevented, or detected and corrected on a timely basis.

    We noted certain matters discussed in Exhibit 1 involving internal control over financial reporting
    and its operation that we consider collectively to be a significant deficiency.

    OCC management’s response to the significant deficiency has not been subjected to the auditing
    procedures applied in the audit of the financial statements and, accordingly, we do not express
    an opinion or provide any form of assurance on the appropriateness of the response or the
    effectiveness of any corrective action described therein.

    This report is intended solely for the information and use of the Management of the OCC, the
    Department of the Treasury Office of Inspector General, the Government Accountability Office,
    OMB, and the U.S. Congress, and is not intended to be, and should not be used by anyone other
    than these specified parties. However, this report is a matter of public record and its distribution
    is not limited.




    October 31, 2012




	                                            Section Five: Financial Management Discussion and Analysis   63
                                                           EXHIBIT 1

                                           SIGNIFICANT DEFICIENCY




64   Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
    Improvements Needed in Information Technology General Controls over OCC’s Financial
    Systems. (Repeat Condition)


    During our audit, we identified certain weaknesses in OCC’s IT general controls that are
    summarized below. Detailed findings and related recommendations will be provided to
    management in a separate Sensitive But Unclassified management report dated October 31,
    2012.

    Security Management

    An entity wide information security management program is the foundation of a security control
    structure and a reflection of senior management’s commitment to addressing security risks.
    As a result of our audit, we concluded that OCC Information System Security Plans (SSP)
    were not fully consistent with the requirements of the NIST Special Publication 800-18 Guide
    for Developing Security Plans for Federal Information Systems. Additionally, OCC needs to
    strengthen its controls over implementation of requirements pertaining to the administration of
    the role based security training; reviewing $MART interfaces and interconnections and ensuring
    that appropriate interconnection or data sharing agreements are in place.

    Access Controls

    Access controls should provide reasonable assurance that computer resources (data files,
    application programs, and computer-related facilities and equipment) are protected against
    unauthorized modification, disclosure, loss, or impairment. During our audit, we determined
    that OCC needs to strengthen its controls over implementation of requirements pertaining to
    password configuration settings; revoking unnecessary access accounts; completion of the exit
    process for terminated individuals, recordkeeping of management approval and recertification
    of access accounts.

    Contingency Planning

    Losing the capacity to process, retrieve, and protect information maintained electronically can
    significantly affect an agency’s ability to accomplish its mission. As a result of our audit, we
    determined that OCC needs to strengthen its controls over the implementation of requirements
    pertaining to developing an executable recovery strategy, the update and maintenance of
    consistency between Contingency Planning documents; and periodically testing backup tapes
    in accordance with OCC policy.




	                                               Section Five: Financial Management Discussion and Analysis   65
     Configuration Management

     Configuration management policies, plans, and procedures should be developed, documented, and
     implemented at the entity wide, system, and application levels to ensure an effective configuration
     management process. During our audit, we determined that: OCC needs to strengthen its controls
     over the update of virus definitions for all relevant servers, configure information systems in
     accordance with documented baseline configurations, and update $MART patches and disable
     unnecessary services. Additionally, OCC needs to prevent developers from moving their own
     code into production, and ensure that operating system changes are authorized, documented and
     controlled through the Information Technology Services change control process.

     MANAGEMENT’S RESPONSE

     OCC’s management concurs with the significant deficiency described in this report. Corrective
     actions are under way to address each recommendation, and management is confident that they
     will be able to rectify these deficiencies before the next Annual Report cycle is completed.




66     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
                   Independent Auditor’s Report on Compliance with
                                Laws and Regulations

    The Inspector General, Department of the Treasury, and
    the Comptroller of the Currency:


    We have audited the balance sheets and the related statements of net cost, changes in
    net position, and budgetary resources, hereinafter referred to as “financial statements”
    of the Office of the Comptroller of the Currency (OCC) as of and for the years ended
    September 30, 2012 and 2011, and have issued our report thereon dated October
    31, 2012. We conducted our audits in accordance with auditing standards generally
    accepted in the United States of America; the standards applicable to financial audits
    contained in Government Auditing Standards, issued by the Comptroller General
    of the United States; and, the applicable provisions of Office of Management and
    Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
    Statements, as amended.

    The management of the OCC is responsible for complying with laws and regulations
    applicable to the OCC. As part of obtaining reasonable assurance about whether
    the OCC’s financial statements are free of material misstatement, we performed
    tests of its compliance with certain provisions of laws and regulations and
    contracts, noncompliance with which could have a direct and material effect on the
    determination of financial statement amounts, and certain provisions of other laws
    and regulations specified in OMB Bulletin No. 07-04, including certain requirements
    referred to in Section 803(a) of the Federal Financial Management Improvement Act
    (FFMIA) of 1996. We limited our tests of compliance to the provisions described
    in the preceding sentence, and we did not test compliance with all laws, regulations
    and contracts applicable to the OCC. However, our objective was not to provide an
    opinion on overall compliance with laws, regulations and contracts. Accordingly,
    we do not express such an opinion.

    The results of our tests of compliance with laws, regulations and contracts described
    in the preceding paragraph, exclusive of FFMIA, disclosed no instances of
    noncompliance or other matters that are required to be reported under Government
    Auditing Standards or OMB Bulletin No. 07-04.




	                               Section Five: Financial Management Discussion and Analysis   67
        Under FFMIA, we are required to report whether the OCC’s financial management systems
        substantially comply with (1) federal financial management systems requirements, (2) applicable
        federal accounting standards, and (3) the United States Government Standard General Ledger at
        the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
        section 803(a) requirements.

        The results of our tests disclosed no instances in which the OCC’s financial management systems
        did not substantially comply with the three requirements discussed in the preceding paragraph.

        This report is intended solely for the information and use of the Management of the OCC, the
        Department of the Treasury Office of Inspector General, the Government Accountability Office,
        OMB, and U.S. Congress and is not intended to be, and should not be used by anyone other than
        these specified parties. However, this report is a matter of public record and its distribution is
        not limited.




        October 31, 2012




68   Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Other Accompanying Information
Performance Measures and Results
The OCC’s FY 2012 performance measures, workload indicators, customer service standards, and results are
presented in figure 11.
Figure 11: Performance Measures, Workload Indicators, Customer Service Standards, and Results


     Strategic             Performance measure workload indicator                           FY         FY         FY              FY 2012
       goal                       customer service standard                                2009       2010       2011       Target       Actuala
    I. A safe and sound national banking system and federal savings associations
                   Percentage of national banks and federal savings associations
                                                                                             82%        72%         75%         90%          76%
                   with composite CAMELS rating of 1 or 2b
                   Rehabilitated problem national banks and federal savings
                   associations as a percentage of the problem national banks one            29%        22%         22%         40%          27%
                   year ago (CAMELS 3, 4, or 5)b
                   Percentage of national banks and federal savings associations
                                                                                             86%        91%         93%         95%          92%
                   that are well capitalizedb
                   Percentage of critically undercapitalized banks and thrifts on
                   which responsible action is taken within 90 calendar days after         100%        100%       100%         100%         100%
                   they become critically undercapitalized
                   Average survey response that the report of examination clearly
                   communicated examination findings, significant issues, and the            1.34       1.47        1.45       <1.75             1.41
                   corrective actions management needed to takec
    II. Fair access to financial services and fair treatment of national bank and federal savings association customers
                   Percentage of national banks and federal savings associations
                   with consumer compliance rating of 1 or 2. For institutions with
                   assets over $10 billion, these ratings reflect only those laws and        97%        96%         96%         94%          93%
                   regulations for which the OCC has enforcement and supervisory
                   authority.
                   Percentage of community banks that are within one year of
                   their first Intermediate Small Bank or Large Bank Community
                                                                                           100%        100%       100%         100%         100%
                   Reinvestment Act examination for which the OCC offers to
                   provide consultation on community development opportunities
                   Percentage of consumer complaints closed within 60 calendar
                                                                                              8%         3%         44%         80%          56%
                   days of receipt
                   Number of consumer complaints opened/closed or referred                58,810/    80,336/     85,127/     72,000/      66,161/
                   during the fiscal yeard                                                32,533/    79,660/     85,128/     70,000/      59,130/
    III. A flexible legal and regulatory framework that enables national banks and federal savings associations to provide a full, competitive
    array of financial services consistent with statutory and prudential safety and soundness constraints
                   Percentage of external legal opinions issued within established
                                                                                             88%        85%         91%         86%          90%
                   time frames
                   Number of external legal opinions issued during the fiscal year             53         64          77          60              59
                   Percentage of licensing applications and notices filed
                                                                                             51%        44%         53%         35%          42%
                   electronically
                   Number of licensing applications and notices filed electronically
                                                                                            1,681      1,440       1,610       1,200        1,374
                   during the fiscal year
                   Percentage of licensing applications and notices completed
                                                                                             95%        96%         97%         95%          98%
                   within established time frames
                   Number of licensing applications and notices completed during
                                                                                            1,471      1,344       1,382       1,700        1,614
                   the fiscal year
                   Average survey rating of the overall licensing services provided
                                                                                             1.25       1.15        1.31        <1.5             1.22
                   by the OCCe
    IV. A competent, highly motivated, and diverse workforce that makes effective use of OCC resources
                   Total OCC costs relative to every $100,000 in assets regulated           $8.81      $9.28       $8.76       $9.22       $10.51




	                                                                     Section Five: Financial Management Discussion and Analysis                    69
Note: Before FY 2012, OCC performance measures included only supervision of national banks. On July 21, 2011, the OCC assumed responsibility for regulating
federal savings associations. Therefore, FY 2012 is the new baseline year for the OCC, with new measures that include both national banks and federal savings
associations. All data before FY 2012 include only national banks.
a
  The FY 2012 performance numbers shown in bold italics are estimates. Some performance data are obtained from quarterly call reports from banks. The
September 30, 2012, call reports are not due until 30 or 45 days after the end of the period. Additionally, examinations concluded late in the fiscal year are not
finalized for another 30 to 60 days. As a result, complete fiscal year data are not yet available; therefore, estimates have been reported.
b
  These performance measures for FY 2012 are below target primarily because of the difficult economic situation the entire financial industry is facing. The OCC
continues to closely monitor the capital levels and performance of all its banks and, when necessary, initiates formal and informal agreements to enhance its level
of supervision.
c
    The examination survey is based on a five-point scale, in which 1 indicates complete agreement and 5 indicates complete disagreement.
d
  The total complaint numbers include referrals to the Federal Reserve Board, the FDIC, the National Credit Union Administration, or any other agency or entity
that is not a national bank, as well as those complaints serviced on behalf of the CFPB.
e
    The licensing survey is based on a five-point scale, in which 1 indicates outstanding and 5 indicates significantly deficient.



Improper Payments Elimination and                                                        are implemented to prevent additional erroneous
Recovery Act                                                                             payments.
The Improper Payments Elimination and Recovery                                           The OCC corrected and recovered all erroneous
Act of 2012, as implemented by the OMB, requires                                         payments made during the year. Figure 12 summarizes
federal agencies to review all programs and activities                                   the OCC’s erroneous payments for FY 2012 and
annually and identify those that may be susceptible to                                   FY 2011.
significant erroneous payments. The OCC analyzed
payments (excluding payroll) made during FY 2012                                         Figure 12: Erroneous Payments
and identified 11 erroneous payments requiring                                                                                       FY 2012          FY 2011
adjustments totaling $573. Erroneous payments are                                         Number of payments                                 11                  52
identified and monitored daily to ensure prompt                                           Dollar value of adjustments                     $573           $17,060
recovery. The underlying causes and contributing
                                                                                         Source: OCC data.
factors are identified quickly, and control measures




70            Office of the Comptroller of the Currency          |   Annual Report Fiscal Year 2012
Assurance Statement                                           on internal control identified a significant control
                                                              deficiency related to information technology general
The Office of the Comptroller of the Currency (OCC)           controls in the areas of security management, access
met the internal control requirements of the Federal          controls, contingency planning, and configuration
Managers’ Financial Integrity Act (FMFIA), the                management. A plan of corrective action is in place to
Federal Financial Management Improvement Act                  address these issues during FY 2013.
(FFMIA), and Office of Management and Budget
(OMB) Circular A-123 during fiscal year (FY) 2012.            I am also providing unqualified assurance that our
                                                              supervision programs achieved intended results despite
The OCC’s systems of management control ensure that           the extraordinary challenges that continued to confront
                                                              national banks and federal savings associations
a)	 programs achieve their intended results;
                                                              (collectively, banks).
b)	 resources are used in accordance with the agency’s
    mission;                                                  Operating environments for the OCC and the
c)	 programs and resources are protected from waste,          banking industry remain challenging. While domestic
    fraud, and mismanagement;                                 conditions are improved overall, U.S. banks with
d)	 laws and regulations are followed;                        Eurozone banking operations confront significant
e)	 controls are sufficient to minimize improper or           risks associated with potential sovereign defaults or
    erroneous payments;                                       countries’ exit from the Eurozone. Nevertheless, on
f)	 performance information is reliable;                      average, balance sheets are stronger, earnings are
g)	 system security is in substantial compliance with         improving, and the number of problem institutions and
    relevant requirements;                                    institutional failures, while still too high, is declining.
h)	 continuity of operations planning in critical areas
    is sufficient to reduce risk to reasonable levels; and    The industry continues to recover from the credit and
i)	 financial management systems are in compliance            capital market challenges of the financial crisis. At
    with federal financial systems standards,                 the same time, however, operational risk, generally
    i.e., FMFIA Section 4 and FFMIA.                          defined as the risk of loss due to failures of people,
                                                              processes, systems, and external events, is increasing.
I am providing unqualified assurance that the above           Such risk is heightened when these systems and
listed management control objectives were achieved            procedures are most complex.
by the OCC without material weakness during
FY 2012. Specifically, this assurance is provided             The OCC is responding to these challenges with
relative to Sections 2 and 4 of the FMFIA.                    enhanced supervision, effective policy development,
                                                              rulemaking, risk monitoring, and examination support.
The OCC conducted its assessment of the effectiveness         Through joint efforts with other federal banking
of its internal control over financial reporting, which       agencies, the OCC also continues to implement
includes the safeguarding of assets and compliance            provisions of the Dodd–Frank Act. While minimizing
with applicable laws and regulations, in accordance           regulatory burden, managing the complexity of and
with the requirements of Appendix A of OMB Circular           interaction between Dodd–Frank and other statutory
A-123. Based on the results of this evaluation, the           and regulatory provisions will continue to require
OCC can provide unqualified assurance that its                extensive interagency consultation and coordination.
internal control over financial reporting was operating
effectively as of June 30, 2012, and no material              This fiscal year, the OCC completed the integration
weaknesses were found in the design or operation of           of 668 Office of Thrift Supervision (OTS) employees,
the internal control over financial reporting.                successfully moving to one regulator with one mission
                                                              to supervise national banks and federal savings
I am reporting substantial compliance with the                associations. Continued progress in integrating OTS
requirements imposed by the FFMIA. The agency’s               and OCC policy and examination platforms remains
internal assessment and the external auditors’ report         a top priority. Early in 2013, the OCC will launch



	                                                       Section Five: Financial Management Discussion and Analysis     71
an aggressive cross-credentialing program to enable                     and compensation; defining and communicating
examiners to become certified to lead examinations of                   risk appetite across the company; development and
both national banks and federal savings associations.                   maintenance of strong audit and risk management
Our goal is to have many examiners cross-credentialed                   functions; and sanctity of the national bank and federal
for maximum resource efficiency and flexibility.                        savings association charters.

Other important initiatives include extensive examiner                  The OCC continues to be represented in various
assignment rotations, extensive examiner training                       interagency and international groups, including the
in risk specialties under the tutelage of experienced                   Federal Financial Institutions Examination Council,
team leaders, and the recruitment of individuals with                   the Financial Stability Oversight Council, the Basel
industry or examination experience in specialty areas                   Committee on Banking Supervision, and the Financial
such as commercial and retail credit, operational risk,                 Stability Board.
Bank Secrecy Act/Anti-Money Laundering
(BSA/AML), and consumer compliance.                                     In addition, the OCC continues to work closely with
                                                                        an interagency group to develop comprehensive
We are also devoting considerable resources to                          and consistently applied and enforced national
developing or improving risk assessment and                             foreclosure servicing standards. We are ensuring that
monitoring analytical tools, including an internal radar                the largest regulated mortgage servicers under our
risk rating and ranking process for the banking system;                 consent orders correct identified deficiencies, and we
a customized package of early warning indicators to                     remain committed to transparency in this process.
detect risks and trends building in the system; and                     We released an updated “Interim Status Report” and
enhanced periodic reports to identify and monitor                       joined with other regulators to release the “Interagency
risks. The OCC’s National Risk Committee has begun                      Guidance on Mortgage Servicing Practices Concerning
publishing a Semiannual Risk Perspective report to                      Military Homeowners With Permanent Change of
give bankers, examiners, and the public the OCC                         Station Orders.” We also published a foreclosure
perspective on key risks and issues facing national                     management bulletin to alert large banks to oversight
banks and federal savings institutions. The first public                and management expectations, and we are examining
version of this report was issued in July 2012. In the                  for compliance.
Eurozone area, added risks include the disruption of
financial market infrastructure, the potential devolution               To reaffirm the importance of strong risk management,
of the Euro and introduction of new currencies, the                     we issued guidance to bankers including an updated
redenomination of financial instruments, and the                        concentrations handbook, a capital planning bulletin,
introduction of capital and exchange controls by a                      a statement on accounting and reporting troubled
country that exits the Eurozone. In our supervisory                     debt restructurings, and interagency guidance on
role, we are evaluating the range of exposures our                      stress testing for banks with more than $10 billion in
institutions could face from direct investment,                         consolidated assets as a means to better understand
contagion, and operating risks and actions taken                        the range of a banking organization’s potential risk
to mitigate or contain those risks. This evaluation                     exposures. To clarify expectations for community
involves reviewing banks’ contingency plans;                            banks, we issued separate guidance on the use
monitoring progress through regular meetings with                       of stress testing in community banks. While we
bank and thrift management; and ensuring that capital,                  expect community banks to identify and assess key
reserves, and liquidity are strong and resilient.                       vulnerabilities and incorporate those assessments
                                                                        into their risk management, business strategies, and
The OCC communicated its elevated expectations                          capital planning processes, the guidance emphasizes
for corporate governance and oversight to the large                     that there is a range of fairly simple tools they can
banks under its supervision. We are also measuring                      use for such analyses. Concurrent with that guidance,
progress in achieving: board of directors’ willingness                  we also made available to national banks and federal
to provide credible challenge; talent management                        savings associations a stress-testing tool to assess key



72      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
vulnerabilities in community banks’ income-producing          services products, and globalization trends are rapidly
commercial real estate portfolios.                            changing the BSA/AML landscape. These are major
                                                              challenges for both the financial services industry and
In addition to rulemaking, bulletins, and other               its regulators, and we are committed to meeting
guidance, the OCC is investing significant resources          those challenges.
to conduct outreach programs on national, regional,
and local levels. During the year, the OCC hosted             The OCC also continues to address its disaster
banking outreach sessions throughout the country              recovery capability with a comprehensive phased plan
for bankers and bank directors to provide updates             for the next three years to meet the organization’s
and educational materials on current issues and               information technology needs. Phase one is underway,
supervisory expectations. In addition to these face-to-       with the OCC moving to a new, state-of-the-art,
face meetings, we conducted several teleconferences           highly secure, and fully redundant data center. Phase
on supervisory topics, including small business               two is also underway, with the OCC’s critical e-mail
lending. We also hosted a series of annual workshops          infrastructure, including BlackBerry servers, already
for bank and thrift directors, a program that is a direct     hosted at a fully redundant data center in Charleston,
outgrowth of interaction with the industry.                   W. Va. By June 30, 2014, I anticipate receiving a
                                                              proposal for phase three, the OCC’s new disaster
We have increased our staffing levels at the large            recovery strategy and roadmap.
banks we supervise, improving communication while
aiding prompt monitoring and assessment.                      Analytical Basis of Assurance Statement

Members of our nation’s armed forces and their                The OCC evaluated its management controls in
families sacrifice much to safeguard the liberties            accordance with the FY 2012 Secretary’s Assurance
we enjoy. Because of the extraordinary hardships of           Statement Guidance of June 22, 2012, and considered
military service, the law provides certain protections        the following guidance:
to our servicemembers. In FY 2012, the OCC and the
                                                              •	   OMB Circular A-127, Financial Management
U.S. Department of Justice have helped ensure that
                                                                   Systems;
servicemembers received every benefit they were
                                                              •	   OMB Circular A-130 Revised, Management of
entitled to under the law, and we are directing national
                                                                   Federal Information Resources;
banks and federal savings associations to correct any
                                                              •	   OMB Circular A-11, Preparation, Submission, and
found violations of the Servicemembers Civil Relief
                                                                   Execution of the Budget;
Act (SCRA). We are also revising and strengthening
                                                              •	   OMB Bulletin 06-03, Audit Requirements for
our examination policies for SCRA compliance.
                                                                   Federal Financial Statements;
Another area of the agency’s focus is                         •	   Statement on Auditing Standards No. 115,
BSA/AML compliance, and we have implemented                        Communicating Internal Control Related Matters
new approaches to BSA/AML to ensure that                           Identified in an Audit; and
deficiencies are considered in a safety and soundness         •	   Treasury Directive 40-04, Treasury Internal
context. The OCC is committed to ensuring that                     (Management) Control Program.
the institutions under its supervision have effective
                                                              Information considered in our control assessment
controls in place to safeguard them from being used
                                                              included the following:
as vehicles to launder money for drug traffickers and
transnational and other criminal organizations, or to         •	   FMFIA certifications submitted by each Executive
facilitate the financing of terrorist acts.                        Committee member;
                                                              •	   FFMIA certification submitted by our Chief
The OCC recognizes that it must be vigilant against
                                                                   Financial Officer;
the determination and ingenuity of those who commit
                                                              •	   The OCC’s Strategic Risk Management Plan;
financial crimes. We also recognize that technical
                                                              •	   Results of internal control testing under OMB
innovations, new and more convenient financial
                                                                   Circular A-123, Appendix A;


	                                                       Section Five: Financial Management Discussion and Analysis   73
•	   Executive Committee descriptions of business unit                  •	   FFMIA Risk Model and Financial Management
     quality management programs;                                            System Self-Assessment Checklists submitted to
•	   Results of control self-assessments completed by                        the Treasury Department in July 2012;
     OCC managers in FY 2012;                                           •	   Unqualified and timely audit opinion on FY 2011
•	   Audit reports and evaluations issued by the                             financial statements; and
     Government Accountability Office (GAO) and the                     •	   Certified public accountant Gardiner, Kamya and
     Office of the Inspector General;                                        Associates’ October 11, 2012 status report on the
•	   Results of other external and internal reviews;                         FY 2012 financial statement audit.
•	   Assessment of the Improper Payments Elimination
     and Recovery Act submitted to the U.S.
     Department of the Treasury in FY 2012;
•	   GAO Core Financial System Requirements
     Checklist;                                                                                              Thomas J. Curry
                                                                                                   Comptroller of the Currency




74      Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Abbreviations
ASC	       Accounting Standards Codification

BSA/AML	 Bank Secrecy Act and Anti-Money Laundering

CAMELS	    capital, asset quality, management, earnings, liquidity, and sensitivity to market risk

CFPB	      Consumer Financial Protection Bureau

CMP	       civil money penalty

CRA	       Community Reinvestment Act

CSRS	      Civil Service Retirement System

FAQ 	      Frequently Asked Questions

FASAB 	    Federal Accounting Standards Advisory Board

FASB 	     Financial Accounting Standards Board

FBWT 	     fund balance with Treasury

FDIC 	     Federal Deposit Insurance Corporation

FEGLI 	    Federal Employees’ Group Life Insurance

FEHB 	     Federal Employees Health Benefits

FERS 	     Federal Employees Retirement System

FFMIA 	    Federal Financial Management Improvement Act

FMFIA 	    Federal Managers’ Financial Integrity Act

FY 	       fiscal year

GAAP 	     generally accepted accounting principles

GAO 	      Government Accountability Office

IRR 	      interest rate risk

JPMC 	     JP Morgan Chase

LSS 	      Lean Six Sigma

              75
	Abbreviations	
NPR 	          notice of proposed rulemaking

NRC 	          National Risk Committee

OCC 	          Office of the Comptroller of the Currency

OM 	           Office of Management

OMB 	          Office of Management and Budget

OMWI 	         Office of Minority and Women Inclusion

OPM 	          Office of Personnel Management

OTS 	          Office of Thrift Supervision

PSH 	          permanent supportive housing

SCRA 	         Servicemembers Civil Relief Act

SFFAS 	        Statement of Federal Financial Accounting Standards

USC 	          U.S. Code




76      Office of the Comptroller of the Currency  |  Annual Report Fiscal Year 2012
Index
A
accounting principles. See generally accepted accounting principles (GAAP)
accounting standards
	 Accounting Standards Codification (ASC), 47, 49
	 basis of, 46
	 Federal Accounting Standards Advisory Board (FASAB), 46
accounts receivable, 37, 47, 51
Acting Comptroller of the Currency. See Walsh, John
Anti-Money Laundering. See Bank Secrecy Act/Anti-Money Laundering (BSA/AML)
assets
	 composition of, 37–38
	 of OCC, 37
	 at OCC-supervised banks, inside front cover, 25
assurance statement, 71–74

B
bank capital
	 at OCC-supervised banks, 25
	 strengthening of, 19
Bank Control Act, 32
bank failures, 10, 12, 71
bank holding companies, minimum capital standards for, 19
Bank Secrecy Act/Anti-Money Laundering (BSA/AML), 7, 15–17, 72, 73
Basel Committee on Banking Supervision, 19, 20
benefits. See employee benefits
Bloom, Thomas R., 28, 30, 35–36
Brosnan, Michael L., 28, 29
budgetary resources, 41, 45

C
CAMELS, 69
capital. See bank capital
Capital One, 18, 33
capital standards, 4, 5, 19, 20
charge-off rates, 12, 25
Chase, Salmon P., 2, back cover
Chief Counsel’s Office
	 Julie L. Williams, 28, 29
Chief Financial Officer
	 biography, 30
	 Thomas R. Bloom, 28, 30, 35–36
	 letter from, 35–36

      77
	Index	
Chief National Bank Examiner
	 John C. Lyons Jr., 28, 29
Chief of Staff
	 Paul M. Nash, 7, 28
Citibank, 16
civil money penalties (CMP), 1, 4, 9, 18, 33, 37, 49, 51
Civil Service Retirement System (CSRS), 41, 48
Cofield, Joyce, 23, 30
Collins Amendment, 19
commercial real estate. See real estate, commercial
commitments and contingencies, 59
common equity, 19
Community Affairs Department, 29
community banks
	 asset-quality indicators, 10
	 bank failures, 12
	 cost of supervising, 40
	 concentration risk, 5, 12
	 credit rating rules for, 20
	 credit risk management, 12
	 lending limits rule for, 21–22
	 number of OCC-supervised, inside front cover
	 OCC supervisory programs, 5, 8, 9, 29
	 revenue challenges for, 26
	 stress testing, 12, 21, 72–73
community development, 15
Community Reinvestment Act (CRA), 15, 17, 18, 30, 33, 69
compensation. See also employee benefits
	 equity capital standards and, 19
	 payouts, 14, 18, 19
compliance risk, 9
Comptroller of the Currency. See Curry, Thomas J.
Comptroller’s Viewpoint, 4–6
concentration risk, 5, 10, 12, 72
Condition of the Federal Banking System. See federal banking system
consent orders, 14, 16, 18, 72
consumer complaints, 17–18, 69–70
Consumer Financial Protection Bureau (CFPB), 17–18, 36, 40, 52, 53, 70
consumer financial services regulation, 17–18
contingencies, 4, 59
cost of operations, 41, 43, 44, 56–57, 58
credit quality, 25
	 credit risk, 9
	 credit risk management, 10–12
credit ratings, 18, 19, 20–21
credit underwriting, 10–12, 22

78	    Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Curry, Thomas J., 28
	 appointment of, 7
	 assurance statement, 71–74
	 biography, 27
	 as Comptroller, 1
	 Comptroller’s Viewpoint, 4–6
	 on concentration risk, 12
	 on fair lending, 18
	 on JPMC losses, 22
	 on operational risk, 13
	 speeches, 12, 13, 24
custodial revenues and collections, 49
Customer Assistance Group, 18, 30

D
Department of the Treasury, U.S., 1, 38, 46, 47
deposit flows, 26
derivatives, 22
diversity, OMWI and. See Office of Minority and Women Inclusion (OMWI)
dividend payouts, 19
Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010, 2, 4, 6, 7, 71
	 bank capital and Basel III, 19
	 Collins Amendment, 19
	 consumer financial services, 17
	 credit ratings rule, 5, 20
	 federal savings associations, 46
	 implementation, 5–6, 18–24
	 lending limits rule, 21–22
	 OCC and OTS integration, 2, 22–23
	 and OCC pension funding, 35
	 Office of Minority and Women Inclusion, 20, 23–24
	 Office of Thrift Supervision, 2, 22–23, 35–36, 37, 39–40, 55
	 risk-retention rule, 5
	 risk-weighted assets, 19
	 section 342, 23
	 section 610, 21–22
	 section 619 (Volcker rule), 5, 22
	 section 939(a), 20
	 stress testing rule, 5, 21
	 Volcker rule, 5, 22

E
earmarked funds, 47
economic recovery, 4–5, 10–12, 19, 24, 25–26, 70, 71
Economics Department
	 Mark Levonian, 28, 30

      79
	Index	
employee benefits, 48–49
	 Federal Employees’ Compensation Act, 54, 55
	 Federal Employees’ Group Life Insurance (FEGLI), 41, 48, 57
	 Federal Employees Health Benefits (FEHB), 41, 48, 57
	 OCC 401(k) plan, 48
	 Office of Management responsibilities, 30
	 post-retirement life insurance benefits, 48–49, 54
	 retirement plans, 35, 41, 48, 54, 55, 57
	 Thrift Savings Plan, 48
enforcement actions, 1, 4, 8, 13, 14–17, 18, 29, 33
Enterprise Governance, 30
entity assets, 37
equal opportunity employment, 23, 30
erroneous payments, 70, 71
Examiner-in-Charge, 8, 9
EXCEL program, 17
Executive Committee, 27, 28, 74

F
FBWT. See fund balance with Treasury
federal banking system
	 bank capital, 19, 20
	 Bank Secrecy Act/Anti-Money Laundering (BSA/AML) compliance, 15–17
	 capital standards, 19, 20
	 Comptroller’s Viewpoint, 4–6
	 condition of, 2, 9, 13, 25–26
	 consumer financial services regulation, 17–18
	 Dodd–Frank implementation, 5–6, 18–24
	 funding, 26
	 National Bank Act, 2
	 National Currency Act, 2
	 performance measures and results, 69–70
	 revenues, 25–26, 39
	 Year in Review, 7–26
federal branches
	 cost of supervising, 40
	 number of OCC-supervised, inside front cover
Federal Deposit Insurance Corporation (FDIC)
	 Comptroller’s role in, 1, 27
	 Thomas J. Curry and, 27
	 Memorandum of Understanding on bank supervision, 17
	 Paul M. Nash and, 28
Federal Employees’ Compensation Act, 54, 55
Federal Employees’ Group Life Insurance (FEGLI), 41, 48, 57
Federal Employees Health Benefits (FEHB), 41, 48, 57
Federal Employees Retirement System (FERS), 41, 48

80    Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
Federal Financial Institutions Examination Council, 27, 72
Federal Financial Management Improvement Act (FFMIA), 71
Federal Home Loan Bank Board, 29
Federal Managers’ Financial Integrity Act (FMFIA), 71, 74
Federal Reserve
	 Mark Levonian and, 30
	 Memorandum of Understanding on bank supervision, 17
	 mortgage relief training conferences, 14
federal savings associations
	 assurance statement, 71–74
	 Bank Control Act Actions, 32
	 Chief Counsel’s Office, 29
	 Chief National Bank Examiner’s Office, 29
	 Community Affairs Department and, 29
	 Comptroller of the Currency’s duties, 27
	 Comptroller’s Viewpoint, 4–6
	 corporate application activity, 31
	 cost of supervising, 40
	 credit rating rules, 20–21
	 interest rate risk management, 13
	 Large Bank Supervision, 29
	 lending limits rule, 21
	 licensing actions, 32
	 number of OCC-supervised, inside front cover
	 and OCC and OTS integration, 22–23, 71–72
	 OCC assessments against, 56
	 OCC funding from, 35, 38, 46, 48, 51, 56
	 OCC mission, 1, 2, 46
	 OCC performance measures and results, 69–70
	 OCC supervision costs, 40
	 OCC supervision of, 4–5, 35, 36, 71
	 Office of the Chief Accountant’s responsibilities, 29
	 Office of Thrift Supervision, 2, 22–23, 71–72
	 performance measures and results, 69–70
	 and SCRA, 73
	 stress testing for, 73
Federal Trade Commission Act, 18
financial crisis. See also economic recovery
	 assurance statement, 71–74
	 and bank capital, 19
	 and capital standards, 4
	 Comptroller’s Viewpoint, 4–6
	 and credit ratings, 20
	 and funding, 26
	 and importance of banking system, 4
	 and leveraged loans, 11

      81
	Index	
	 and risks to banking system, 6
	 and stress testing, 21
Financial Management Discussion and Analysis, 35–74
	 assets, 37
	 assurance statement, 71–74
	 balance sheets, 42
	 budgetary resources, 41, 45, 58
	 cost of operations, 41, 56, 57
	 erroneous payments, 70, 71
	 financial statements, 35, 37, 42–45
	 financial summary, 37
	 fund balance with Treasury, 37, 42, 47, 49
	 Improper Payments Elimination and Recovery Act, 70, 74
	 imputed costs, 56, 57
	 independent auditor’s report, 60–68
	 investments, 35, 37, 38, 39, 40, 42, 47, 50, 56
	 leases, 52, 53
	 letter from the Chief Financial Officer, 35–36
	 liabilities, 38, 42, 47, 54
	 net position, 39, 42, 44, 56
	 notes to financial statements, 46–59
	 other actuarial liabilities, 54–55
	 performance measures and results, 69–70
	 property and equipment, net, 37, 42, 47, 52
	 reconciliation of net cost of operations to budget, 57, 58
	 rental income, 35, 40, 52, 53
	 reserves, 35, 39–40
	 revenues, 40, 46, 47, 49
	 significant accounting policies, 46–49
	 statements of budgetary resources, 45
	 statements of changes in net position, 44
	 statements of net cost, 43
financial statements, 42–45
	 balance sheets, 42
	 notes to, 46–59
	 statements of budgetary resources, 45
	 statements of changes in net position, 44
	 statements of net cost, 43
flood insurance, 17, 18
foreclosures
	 backlog, 10
	 during first half of 2012, 25
	 independent foreclosure review, 14
	 mortgage foreclosure agreement implementation, 14–15
	 servicing standards, 72


82     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
401(k) plan, 48
fund balance with Treasury (FBWT), 37, 42, 47, 49
funding
	 costs, 26
	 of OCC operations, 2, 35

G
generally accepted accounting principles (GAAP), 35, 37, 46
GKA, independent auditor, 35, 60–68

H
Hattix, Larry L., 30
hedge funds, 22
Home Owners’ Loan Act, 2
housing, 10, 15. See also real estate, residential
HSBC Bank USA, 16–17

I
Improper Payments Elimination and Recovery Act of 2012, 70, 74
imputed costs and financing sources, 56, 57
independent auditor’s report, 35, 60–68
independent foreclosure review, 14
information technology
	 bank information technology, 17, 29
	 controls, 71
	 disaster recovery capability, 73
	 investments, 40, 56
	 OCC Information Technology Services, 30
interest rate risk (IRR), 9, 13
internal controls, 16, 35, 71–74
“investment grade” determination, 20
investments and related interest, 37, 38, 42, 47, 50

J
JP Morgan Chase (JPMC), 22
Justice, U.S. Department of, 18, 73

K
Kelly, Jennifer C., 28, 29

L
Large Bank Review Team, 17
large banks
	 asset-quality indicators, 10
	 BSA/AML compliance and enforcement, 16, 17
	 capital requirements, 19

      83
	Index	
	 Collins Amendment, 19
	 consumer complaints, 17–18
	 corporate oversight and governance, 5, 21, 72
	 cost of supervising, 40
	 deposit flows, 26
	 examiner staffing, 5, 8, 17, 72, 73
	 foreclosures, 10, 14
	 heightened expectations, 5, 8, 15, 72
	 Large Bank Supervision, 8, 29
	 number of OCC-supervised, inside front cover
	 specialized examinations, 17
	 stress testing, 21
	 supervisory ratings, 8
Large Bank Supervision, Department of
	 Michael L. Brosnan, 28, 29
	 examiner staffing, 5, 8, 17, 72, 73
	 EXCEL program, 17
Law Department. See Chief Counsel’s Office
leadership training, 17
Lean Six Sigma (LSS), 36
leases, 52, 53
lending limits, Dodd–Frank rule on, 18, 21–22
leveraged lending, 10–12
Levonian, Mark, 28, 30
liabilities, 35, 42, 46, 47–48, 54
	 composition of, 38
licensing
	 actions and timeliness, 32
	 applications presenting Community Reinvestment Act issues decided, 33
	 changes in Bank Control Act actions, 32
	 corporate application activity, 31
	 department of, 29
	 and enforcement measures, 31–33
	 performance measures and results, 70
	 regulation of banking system’s operational and competitive structure, 8
licensing and enforcement measures, 31–33
life insurance, 41, 48–49, 54, 57
Lincoln, Abraham, 1, 6, back cover
liquidity, 4, 11, 72
	 risk management, 9, 13
	 and stress testing, 21
loan losses, 10, 12, 25
low-income housing tax credit, 15
Lyons, John C., Jr., 28, 29



84     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
M
map, OCC district boundaries, inside front cover
market risk, 1, 9, 20
McCulloch, Hugh, 1
Midsize and Community Bank Supervision, Department of
	 Jennifer C. Kelly, 28, 29
midsize banks, 8, 11, 22
	 cost of supervising, 40
	 number of OCC-supervised, inside front cover
minority borrowers, 18, 24
minority-owned banks, 24
minority-owned businesses, 23
money laundering. See Bank Secrecy Act/Anti-Money Laundering (BSA/AML)
mortgage(s)
	 CFPB and, 17–18
	 foreclosures, 10, 14–15, 25
	 at OCC-supervised banks, 7, 10, 25, 72
	 relief, 14–15, 18
	 SCRA violations, 18
mortgage-backed securities, 20
Mortgage Electronic Registration System, 15
mortgage foreclosures. See foreclosures

N
Nash, Paul M., 7, 28
National Bank Act (1864), 1, 2
national banks
	 assurance statement, 71–74
	 Bank Control Act Actions, 32
	 Chief Counsel’s Office, 29
	 Chief National Bank Examiner’s Office, 29
	 Community Affairs Department and, 29
	 Comptroller of the Currency’s duties, 27
	 Comptroller’s Viewpoint, 4–6
	 corporate application activity, 31
	 cost of supervising, 40
	 credit rating rules, 20
	 interest rate risk management, 13
	 Large Bank Supervision, 29
	 lending limits rule, 21
	 licensing actions, 32
	 number of OCC-supervised, inside front cover
	 OCC assessments against, 56
	 OCC funding from, 35, 46, 48, 51, 56
	 OCC mission, 1, 2, 46
	 OCC performance measures and results, 69–70

      85
	Index	
	 OCC supervision costs, 40
	 OCC supervision of, 4–5, 35, 36, 71
	 Office of the Chief Accountant’s responsibilities, 29
	 Office of Thrift Supervision, 23, 71–72
	 performance measures and results, 69–70
	 and SCRA, 73
	 stress testing for, 73
National Credit Union Administration, 17
National Currency Act (1863), 1, 2, 46
National Risk Committee (NRC), 9–10, 72
	 Semiannual Risk Perspective, 10, 72
NeighborWorks America, 1, 27
net cost of operations, 41, 43, 44, 56, 57, 58
net income, OCC-supervised banks, 25
net position, 39, 42, 44, 56
new markets tax credit, 15
non-entity assets, 37
noninterest expenses, 26
noninterest income, 26
notices of proposed rulemaking (NPR), 5, 18–22, 72–73

O
Office of Foreign Asset Control, 16
Office of Management (OM)
	 Thomas R. Bloom, 28, 30, 35–36
Office of Minority and Women Inclusion (OMWI), 20, 23–24, 30
	 Joyce Cofield, 23, 30
Office of Personnel Management (OPM), 41, 48, 57
Office of the Chief Accountant, 29
Office of the Comptroller of the Currency (OCC)
	 about the, 1–2
	 at-a-glance, inside front cover
	 budget authority, 40, 45, 49
	 capital standards, 19
	 Chief Counsel’s Office, 29
	 Chief National Bank Examiner’s Office, 29
	 Chief of Staff, 28
	 Comptroller of the Currency, 27
	 consumer complaints closed or referred, 17–18, 69
	 consumer complaints opened, 17, 69
	 cultivation of skills and leadership within, 17
	 Economics Department, 30
	 enforcement actions (FY 2012), 33
	 Executive Committee, 28
	 harmonization of capital standards, 19
	 history, 1–2

86     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
	 housing finance initiatives, 15
	 licensing, enforcement, 31–33
	 Midsize and Community Bank Supervision Department, 29
	 mission, 1, 7, 8, 17, 35, 36, 46, 71
	 number of employees, inside front cover
	 office locations, inside front cover
	 Office of Management, 30
	 Office of Minority and Women Inclusion, 30
	 Office of the Ombudsman, 30
	 organization of, 27–30
	 regulatory powers, 1–2
	 revenue derived from assessments, 40, inside front cover
	 rule on risk-based capital for market risk, 20
	 strengthening of bank capital, 19
	 supervisory programs, 8
Office of the Ombudsman
	 Larry L. Hattix, 30
Office of Thrift Supervision (OTS), 2, 18, 22–23, 35–36, 37, 39–40, 55, 71–72
Ombudsman. See Office of the Ombudsman
operational risk, 13–18
	 Bank Secrecy Act/Anti-Money Laundering compliance, 15–17
	 consumer compliance, 17–18
	 defined, 9
	 mortgage foreclosure agreement implementation, 14–15
operations, cost of. See cost of operations

P
pension funding, 35
Pentegra Defined Benefit Plan, 39, 48, 54, 55, 57
performance measures and results, 69–70
permanent supportive housing (PSH), 15
post-retirement life insurance benefit plan, 48–49, 54
price risk, 9
private equity funds, 22
problem loans, 12
profitability, at OCC-supervised banks, 5, 10, 25
property and equipment, net, 47, 52
proprietary securities trading, 5, 18, 22
public service announcements, 14

R
real estate
	 commercial, 5, 10, 12, 25, 73
	 residential, 5, 12, 25
reconciliation of net cost of operations to budget, 57, 58
rental income, 35, 40, 52, 53

      87
	Index	
reserves, 12, 25, 35, 39–40, 56
retirement plans, 35, 41, 48, 54
revenues
	 components of total revenue, 40, 46–47
	 at OCC-supervised banks, 25–26
risk-based capital, 20
risk management
	 credit risk, 10–12
	 interest rate risk, 13
	 liquidity risk, 13
	 operational risk, 13–18
	 risk assessment, 9–10
risk-weighted assets, 19
rulemaking. See Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010; notices
		 of proposed rulemaking

S
securities trading, 22
securitization, 5, 22. See also mortgage-backed securities
Semiannual Risk Perspective, 10
Senate Committee on Banking, Housing, and Urban Affairs, 7
Senate Committee on Homeland Security and Governmental Affairs, 16–17
Servicemembers Civil Relief Act (SCRA), 14, 18, 73
small business lending, 12, 73
strategic risk, 9, 74
stress testing, 12, 13, 18, 20, 21, 72–73
subprime lending, 18
Supervisory Capital Assessment Program, 21
supervisory initiatives, 7–8
Survey of Credit Underwriting Practices, 10–11

T
terrorism, money laundering and, 15–17
thrifts. See federal savings associations; Office of Thrift Supervision (OTS)
Thrift Savings Plan, 48
training, 17
Treasury, U.S. Department of the, 1, 38, 46, 47. See also fund balance with Treasury (FBWT)

U
underwriting, 10–11, 22
Uniform Financial Institutions Rating System, 17

V
Volcker rule, 5, 18, 22



88     Office of the Comptroller of the Currency   |   Annual Report Fiscal Year 2012
W
Walsh, John
	 Acting Comptroller, 27
	 Dodd–Frank implications, 19
	 OCC and OTS integration, 23
	 Volcker rule, 22
Wells Fargo, 18
Williams, Julie L., 28, 29
women-owned businesses, 23

Y
Year in Review, 7–24




      89
	Index	
In “The Abraham Lincoln Mural (Conferring With Salmon P. Chase)” (1922),
the artist N.C. Wyeth depicted the two men working on national banking legislation.

Courtesy of Langham Hotel, Boston, Mass.
